<html>
<title> - [H.A.S.C. No. 115-5]The Evolving Threat of Terrorism and Effective Counterterrorism Strategies</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                               
                          [H.A.S.C. No. 115-5]
 
                    THE EVOLVING THREAT OF TERRORISM

               AND EFFECTIVE COUNTERTERRORISM STRATEGIES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2017


                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-677 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a> 


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
               Mark Morehouse, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Hoffman, Bruce, Director, Center for Security Studies and 
  Director, Security Program, Georgetown University..............     3
Jenkins, Brian Michael, Senior Advisor to the President, RAND 
  Corporation....................................................     5
Sheehan, Ambassador Michael A., Distinguished Chair, Combating 
  Terrorism Center at West Point.................................     6

                                APPENDIX

Prepared Statements:

    Hoffman, Bruce...............................................    55
    Jenkins, Brian Michael.......................................    89
    Sheehan, Ambassador Michael A................................   109

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................   121
    Mr. Lamborn..................................................   122
    Mr. Langevin.................................................   121
    Ms. Speier...................................................   123
    Dr. Wenstrup.................................................   123
   
   
   THE EVOLVING THREAT OF TERRORISM AND EFFECTIVE COUNTERTERRORISM 
                               STRATEGIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 14, 2017.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The meeting will come to order. Following our 
hearings on the state of the world, security environment, and 
the state of the military, today we begin to examine some of 
the specific security challenges facing the United States.
    This week the topic is terrorism. In conjunction with the 
Subcommittee on Emerging Threats and Capabilities, there will 
be a number of classified and unclassified events this week on 
that topic.
    The United States has been explicitly at war with terrorist 
organizations for close to 18 years. The threat to Americans 
and to American interests has certainly changed over the course 
of that time. Today, we all have hopes the Iraqi military will 
continue to drive ISIS [Islamic State of Iraq and Syria] out of 
Iraq, and that a coalition can reduce its presence and ability 
to operate in Syria.
    But we should be under no illusions. Squeezing ISIS out of 
Iraq and Syria will push some of them into other parts of the 
world, such as Africa and Southeast Asia.
    Al Qaeda has not gone away despite its lower profile in the 
news, and in fact, some believe that it is rebuilding its 
capacity for attacking the West. And while terrorists have 
physically spread out to more geographic locations, some of 
them have also become quite adept at operating online as well, 
challenging our intelligence collection and our 
counterterrorism efforts.
    We are privileged today to have three experts to whom this 
committee has regularly turned for perspective and guidance 
over the years. They will help us step back from the headlines 
of the moment to assess the status of the terrorist threat, how 
it is evolving, and what kind of capability the United States 
must have to defend our people.
    Before turning to them, I would yield to the ranking member 
for any comments he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and I largely concur on 
your opening remarks. I think you can rank the threats in 
different ways, but I have always, you know, felt that the 
number one threat was what is presented by Al Qaeda and ISIS 
and all of the offshoots.
    Because whatever challenges we may have with other 
countries in the world, this is the one group, Al Qaeda, ISIS, 
Boko Haram, Al Shabaab, et cetera, that wakes up every morning 
trying to kill as many Westerners as is humanly possible. And 
the only thing that is stopping them is our ability to stop 
them. It is not a lack of will.
    So trying to combat that ideology and combat those specific 
groups, I still feel, is the number one security threat that we 
face in this country. And I think that the chairman outlined it 
fairly well.
    Since 9/11, we definitely had some initial success in going 
after Al Qaeda, knocking out their leadership, going after 
their home bases, and disrupting their ability to plot and 
carry out attacks.
    So the good news is we have done a decent job of 
identifying specific people and specific groups that threaten 
us, and then weakening them by taking out their leadership and 
undermining their ability to plan against us.
    The bad news is the ideology has spread even further, and 
you have people picking up the banner of ISIS who may have 
never had anything to do with ISIS. But nonetheless, they 
commit terrorist attacks that threaten our security here in the 
U.S. and amongst our Western allies.
    So the real big question is, how do we stop that 
metastasizing of this ideology that so threatens us? I believe 
that we have to continue to focus on the specific groups, the 
threats that they have made.
    I think both President Bush and President Obama prioritized 
that correctly, but how do we stop the spread of the ideology? 
That is where I feel like we have been going backwards over the 
course of the last 15 years.
    That regrettably more and more people, typically people who 
have, you know, issues of their own, not happy with their life, 
have mental instability, pick up the banner and commit attacks 
in the name of this ideology. So how we combat that, I think, 
is the most important question going forward.
    Certainly, we are also interested in the details of, as the 
chairman mentioned, is Al Qaeda reconstituting itself? If so, 
where? What parts of the world present the greatest challenge?
    And also, I think, very importantly, who are the partners 
that we should look to be working with or continue to be 
working with who can help us with this in those parts of the 
world where this threat emanates from? And so I look forward to 
your testimony.
    I thank the chairman for the opportunity, and I yield back.
    The Chairman. Thank the gentleman. As I say, we appreciate 
each of the witnesses being here today. We have Professor Bruce 
Hoffman, director, Center for Security Studies and director of 
the Security Studies Program at Georgetown University.
    We have Mr. Brian Michael Jenkins, senior advisor to the 
president at RAND Corporation. And we have Ambassador Michael 
Sheehan, who is currently distinguished chair, Combating 
Terrorism Center at West Point.
    Obviously, more extensive bios are in everybody's 
information. Thank you all for being here. Without objection, 
your full written statements will be made part of the record, 
and we would be delighted to hear any overviews and oral 
comments you would like to make at this time.
    Professor Hoffman, we will start with you.

   STATEMENT OF BRUCE HOFFMAN, DIRECTOR, CENTER FOR SECURITY 
 STUDIES AND DIRECTOR, SECURITY PROGRAM, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you, Mr. Chairman, Ranking Member Smith, 
for the privilege of testifying before the committee this 
morning.
    While ISIS poses the most serious imminent terrorist threat 
today, Al Qaeda has been quietly rebuilding and marshalling its 
resources to reinvigorate its war against the United States. 
The result is that both groups have enmeshed the U.S. and the 
West in a debilitating war of attrition with all its 
deleterious consequences.
    ISIS, alas, is here to stay, at least for the foreseeable 
future. Some 2 years before the 2015 Paris attacks, it built an 
external operations capability and network in Europe that 
mostly escaped notice. This unit appears to function 
independently of the group's waning military and territorial 
fortunes, and thereby ensures that ISIS will retain an 
effective international terrorist strike capability.
    Moreover, there is the further problem of at least some of 
the estimated 7,000 European foreign fighters returning home. 
They are only a fraction of the nearly 40,000 terrorists from 
more than 100 countries throughout the world who have trained 
in Syria and Iraq.
    And unlike the comparatively narrow geographical 
demographics of prior recruits, the current foreign fighter 
cadre includes hitherto unrepresented nationalities, such as 
hundreds of Latin Americans, along with citizens from Mali, 
Benin, and Bangladesh, among others.
    Meanwhile, Al Qaeda's presence in Syria should be regarded 
as just as dangerous and even more pernicious than that of 
ISIS. This is the product of Al Zawahiri's strategy of letting 
ISIS take all the heat and absorb all the blows from the 
coalition arrayed against it, while Al Qaeda quietly rebuilds 
its military strength and basks in its paradoxical new cachet 
as, quote/unquote, ``moderate extremists,'' in contrast to the 
unconstrained ISIS.
    Anyone inclined to be taken in by this ruse would do well 
to heed the admonition of the American journalist who spent 2 
years in Syria as a hostage of Jabhat al-Nusrah. Theo Padnos 
relates how, ``The Nusra Front higher-ups were inviting 
Westerners to the jihad in Syria not so much because they 
needed more foot soldiers--they didn't--but because they want 
to teach the Westerners to take the struggle into every 
neighborhood and subway [station] back home.''
    Looking to the immediate future, ISIS' continuing setbacks 
and serial weakening arguably create the conditions where some 
reconciliation with Al Qaeda might yet be effected, whether 
voluntarily or through forced absorption. Regardless of how 
that might occur, any kind of reamalgamation or cooperation 
between the two would doubtless produce a significantly 
escalated global threat.
    A quarter of a century ago, British Prime Minister Margaret 
Thatcher described publicity as the oxygen upon which terrorism 
depended. Today, however, it is access to sanctuary and safe 
haven that sustains and nourishes terrorism.
    A depressing pattern has established itself whereby we 
continue to kill terrorist leaders while the organizations they 
lead nonetheless continue to seize territory.
    Indeed, according to the National Counterterrorism Center 
[NCTC], a year before the U.S. launched the current campaign to 
defeat ISIS, the group had a presence in only seven countries 
around the world. By 2015, that number had nearly doubled.
    And as recently as this past August, the NCTC reported that 
ISIS was, quote/unquote, ``fully operational'' in 18 countries. 
Meanwhile, Al Qaeda is also present in three times as many 
countries today as it was 8 years ago.
    Sanctuary, it should be noted, also permits more scope for 
terrorist research and development of various unconventional 
weapons, as Al Qaeda clearly demonstrated with its pre-9/11 
efforts to acquire chemical, biological, radiological, and even 
nuclear weapons in Afghanistan.
    In sum, the U.S. is facing perhaps the most perilous 
international security environment since the period immediately 
following the September 11, 2001, attacks, with serious threats 
now emanating from not one, but two terrorist movements.
    Our Salafi-jihadi enemies have locked us into an enervating 
war of attrition, the preferred strategy of terrorists from 
time immemorial. They hope to exhaust us and to undermine 
national political will, corrode internal popular support and 
demoralize us and our regional partners through a prolonged, 
generally intensifying and increasingly diffuse campaign of 
terrorism and violence.
    Indeed, the three pillars upon which our counterterrorist 
strategy has been based, leadership attrition, training of 
local forces, and countering violent extremism, have thus far 
all failed to deliver a crushing blow to either ISIS or Al 
Qaeda. Decisively breaking this stasis and emerging from this 
war of attrition must now therefore be among the United States' 
highest counterterrorist priorities.
    The current threat environment posed by the emergence and 
spread of ISIS and the stubborn resilience and long-game 
approach of Al Qaeda makes a new strategy and new 
organizational and institutional behaviors necessary.
    The effectiveness of the strategy will be based on our 
capacity to think like a networked enemy in anticipation of how 
they may act in a variety of situations, aided by different 
resources.
    This goal requires that the United States national security 
structure organize itself for maximum efficiency, information 
sharing, and the ability to function quickly and effectively 
under new operational definitions. Thank you.
    [The prepared statement of Mr. Hoffman can be found in the 
Appendix on page 55.]
    The Chairman. Thank you. Mr. Jenkins.

   STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISOR TO THE 
                  PRESIDENT, RAND CORPORATION

    Mr. Jenkins. Chairman Thornberry, Ranking Member Smith, 
members of the committee, thank you for again inviting me to 
address this important subject.
    While perhaps not an existential threat to the republic, I 
would agree that jihadist terrorism is the most prominent and 
certainly the most persistent security challenge that we face.
    Terrorism has increased dramatically worldwide, although 
most recent terrorist incidents remain concentrated in the 
Middle East and adjacent regions of North Africa and West Asia. 
The Middle East is also the theater of most U.S. military 
engagements over the past three decades.
    Jihadists have established footholds throughout the region. 
Both Al Qaeda and ISIL [Islamic State of Iraq and the Levant] 
have sent out missions to establish or acquire affiliates, 
often by attaching themselves to rebels fighting local 
governments.
    Now, I think it would be wrong to see this spread of 
jihadist flags as the advance of an occupying army. It is not 
centrally controlled. Loyalties remain fluid, and we will see 
how much attraction ISIS or ISIL continues to have when it 
faces loss of territory in Syria and Iraq.
    But it complicates things by turning one war into many 
wars. The spillover from these contests creates a multileveled 
terrorist threat. First, strategic strikes from abroad; second, 
returning foreign fighters; and third, homegrown terrorists 
inspired by jihadist ideology.
    Now, improved intelligence, greater international 
cooperation, and continuing military operations have made it 
more difficult, not impossible, to carry out large-scale 
operations like Al Qaeda's 9/11 attacks. ISIL itself clearly 
has global ambitions and has assisted some terrorist operations 
abroad, but it has not, at least not yet, attempted to 
replicate Al Qaeda's campaign.
    Instead of escalating vertically, today's jihadists have 
escalated horizontally by exploiting the internet and social 
media to inspire distant followers. Their manuals recommend 
soft targets and simple operations within the limited 
capabilities of these recruits.
    The trend is toward what we might call pure terrorism. That 
is, truly random attacks on people anywhere, often by a single 
individual using any available weapon. Now, the small numbers 
of these attacks suggest that it isn't easy to remotely 
motivate people to action.
    The internet reaches a vast audience, but absent physical 
connectivity, most online would-be warriors do nothing. Still, 
we have to keep in mind that as ISIL faces defeat on the 
ground, it could respond with more ambitious international 
operations.
    Foreign fighters pose another layer of the threat, more so 
in Europe than the United States. The fact is here, however, 
that as ISIL is squeezed territorially in Iraq and Syria, that 
it won't end the fighting.
    It will go underground and continue the contest, but the 
foreign fighters cannot survive an underground struggle. They 
will scatter to other jihadist fronts. Some will return home, 
determined to continue the jihad.
    The principal threat here comes from homegrown terrorists. 
Fortunately, they are few despite constant exhortation from 
abroad. Since 9/11, approximately 150 individuals have been 
arrested or killed plotting or carrying out terrorist attacks 
here.
    The FBI [Federal Bureau of Investigation] and police have 
uncovered and thwarted more than 80 percent of these plots. 
That is a remarkable record. As a result, in the past 15 years, 
jihadist terrorists in the United States have been able to kill 
fewer than 100 people. Every death is tragic, but certainly it 
is a far smaller number than we were worried about in the 
immediate shadow of 9/11.
    But although fortunate here, we still have to address the 
source of the problem, as Professor Hoffman has pointed out. 
There are no easy solutions here. Attacking root causes while 
reducing ungoverned spaces requires major investments and will 
take years.
    We could relax the rules of engagement and increase the use 
of air power, but bombing errors, we see, can create backlash. 
Partnering with the Russians to destroy ISIL, in my view, comes 
at a high political cost and offers very little in return 
operationally. Large-scale interventions by U.S. combat forces 
are best avoided, and any such operations must be limited in 
scope and time.
    Instead of sending more troops in, can we simply withdraw, 
leaving local belligerents to sort things out? That has a great 
deal of appeal. It would get us out of a costly mess and enable 
the country to focus on rebuilding the American economy.
    But the U.S. has achieved a measure of success on several 
occasions, only to see things fall apart when it turned its 
attention to other fronts.
    Still, Americans are reluctant to accept that this is an 
open-ended contest. But whether and how the United States might 
end or substantially reduce its military role remains largely 
unexplored territory.
    Thank you.
    [The prepared statement of Mr. Jenkins can be found in the 
Appendix on page 89.]
    The Chairman. Ambassador Sheehan.

   STATEMENT OF AMBASSADOR MICHAEL A. SHEEHAN, DISTINGUISHED 
        CHAIR, COMBATING TERRORISM CENTER AT WEST POINT

    Ambassador Sheehan. Thank you, Mr. Chairman, Ranking 
Member. It is a pleasure to testify in front of you both today. 
By the way, now that I am not in government, I will be able to 
speak a little more frankly. I want to talk a little bit about 
the terrorist threat, evaluate some of our counterterrorism 
measures, and then make a few observations about future 
policies.
    First, let me start off by saying there is good news and 
bad news to this story, and it is important to understand the 
good news. The good news is that, since 9/11, our Nation has 
been very successful in denying Al Qaeda, ISIS, or any of their 
affiliates from conducting a strategic-level attack against our 
homeland in 15 years.
    The bad news is that over the last 6 years the number of 
violent jihadis around the world has increased dramatically. In 
addition, there are a growing number of conflict zones across 
the Islamic world, from top to bottom, from right to left, from 
South Asia to the Levant and across all of Africa.
    These conflicts have provided opportunities for the 
expansion of Al Qaeda and ISIS from their traditional 
strongholds and have exacerbated the anger of homegrown 
terrorists in Europe and in the United States.
    During the past few years, sadly, three armies that we 
armed and trained to the teeth collapsed in front of lightly 
armed militia groups, Mali in 2012, Iraq in 2014, and Yemen in 
2015, providing our enemies with tons of equipment, ammunition, 
and vehicles.
    Let me expand a little bit on the bad news. I skipped over 
some of the good news, and there is lot, but it is in my 
written testimony. Let me focus on the bad news.
    Since the Arab Spring, the Islamic world has been beset 
with these conflicts. Currently, there are four failed states 
in the Islamic world: Syria, Yemen, Somalia, and Libya. There 
are at least five other states with major areas of ungoverned 
space, including the FATA [Federally Administered Tribal Areas] 
in Pakistan, Afghanistan, Iraq, Sudan, and Mali.
    In addition, there are several other states with conflicts 
brewing of varying degrees of violence and ungoverned space, 
such as Southern Philippines, Niger, Nigeria, Cameroon, Chad, 
and also in the Sinai region of Egypt.
    The roots of these conflicts are complex. Many go back 
decades, but all have been exacerbated by the Arab Spring and 
the involvement of radical jihadis.
    Each of these conflicts has its own unique characteristics, 
which I, again, is in my written testimony. They are all very, 
very different, and AQ [Al Qaeda] and ISIS adapt to each one of 
those to expand their influence and pour gasoline on the fire 
and extend their own strategic goals.
    Before recommending any new actions, let me quickly review 
what has worked for the past 15 years. It is very important to 
understand, a lot of what we have done has worked. It is not 
luck that we haven't been re-attacked since 9/11. It is not 
luck. It is a lot of hard work.
    I describe it in four layers of defense, starting with 
sanctuary areas, which I will focus mostly on, because this is 
the Armed Services Committee.
    But the second area is the area between the sanctuaries and 
our border, where most of that action is involved with 
intelligence sharing.
    The third layer of defense is our border. And that is very 
much related, those watch lists, to the intelligence sharing in 
the second layer of defense.
    The fourth and final defensive area is our homeland, and 
that primarily is the work of the FBI Joint Terrorism Task 
Force [JTTF] and organizations like NYPD [New York Police 
Department], that I was proud to be a part of.
    Let me talk a little bit about the sanctuaries again and 
what we have done there and what has worked. In the sanctuary 
areas, we have pounded Al Qaeda's leadership in the FATA, 
Yemen, and Somalia with lethal action from the skies and also 
from the land and sea. This model has now been expanded to ISIS 
targets in Iraq, Syria, and Libya.
    Some pundits call these programs ``whack-a-mole,'' 
inferring the terrorists quickly rebound from these attacks. My 
experience in studying behavior of these groups has been very 
different.
    In those regions where we conduct these operations, not 
only do we kill off the most experienced, talented, and 
dangerous terrorists, but those that come after are principally 
concerned about staying alive.
    And they know that it is extremely dangerous for them to 
talk on the phone, send an email, meet with more than two or 
three people, travel in a car, set up a safehouse or a small 
training area. And those that do so, have a very short life 
expectancy, and they all know it.
    And it is difficult to run an international terrorist 
organization when you are under such pressure and your primary 
concern is physical survival.
    But our most important instrument, in addition to these 
strikes, is the training, advice, and assistance of our 
military units in these regions, particularly by the U.S. Army 
Special Forces.
    As advisors, in most of our cases, our soldiers should not 
be involved with what is referred to as ``actions on the 
objective.'' That is the shooting part of it. They should be 
more advisors and allow the host country military forces take 
actions on the objective. Again, I go through more of that 
concept in my written remarks.
    Let me conclude by saying--with 10 points on how we need to 
ramp up our policies in order to respond to this increasing 
threat and some of the problems we have had in the last few 
years.
    First of all, as Mr. Jenkins said, try not to invade 
countries. That doesn't always work out very well. But at the 
same time, we have this allergy invading countries.
    And secondly, I would say don't allow more of these 
collapsed armies to happen: Mali, Yemen, and Iraq. It is not 
necessary. So my second point is if you do have to intervene, 
look at the French model in Mali where they got in, crushed the 
rebellion, and got out.
    They didn't own the problem. They still have small forces 
there putting pressure on AQIM [Al Qaeda in the Islamic 
Maghreb], but they have not owned Mali and they got out after 
they achieved their objective.
    Thirdly we should expand our train, advise, and assist 
programs across the danger areas that I discussed. Advisors 
should be able to move forward. But again, as I said, the 
actual shooting should go to the host country.
    Fourth, Afghanistan and Iraq are very, very important, but 
I caution about creeping troop increases in both countries. 
Thousands of advisors that are there in advise missions, when 
it becomes too big, it begins to look and smell like an 
occupation. And occupations create as many problems as they 
seek to solve.
    When I was a special forces advisor in El Salvador, in a 
compound, by the way, that was overrun three times in 7 years, 
there was never more than two or three special forces advisors 
per brigade. And for 6 months I was there by myself. Sometimes, 
less is more in this type of operation.
    Fifth, aviation is a game changer. Drones collect 
intelligence and target terrorist leadership. Attack 
helicopters, AC-130s, A-10s, are the ground pounders' best 
friend in a firefight. If you want to do more in these combat 
zones, I would expand aviation. Not only U.S. but host 
countries, to the extent that you can, and keep the footprint 
of ground forces to a minimum.
    Troop increases should be done in tens and hundreds. I am 
skeptical about increases in the thousands.
    Sixth, keep your sociopolitical objectives humble and 
limited. These problems are very complex, and even if you solve 
them in a country like Tunisia, which is stable, has rule of 
law, some economic development, they export on a per capita 
basis more jihadis than any other Arab country.
    So even where you have solved all the political social 
problems doesn't guarantee that you are going to eliminate the 
jihadis.
    Seventh, support our key allies in the regions that are in 
the front lines of this fight, particularly Egypt, Jordan, the 
UAE [United Arab Emirates], and others like Niger that are 
hosting our aircraft in Central Africa. They are not perfect 
partners, but they are our partners and need our support.
    Eight, crank up the pressure on Iran. We should no longer 
accept the Iranian transgressions against our soldiers and 
sailors. A swift and determined response should be conducted 
for future transgressions. Failure to do so risks escalation of 
these attacks from this rogue regime.
    Ninth, preserve our troops. Their lives are precious, and 
there are a growing number of requirements around the world. We 
have been fighting this war for the last 15 years. We are going 
to have to do it for the next 15 at least. At the same time, 
they are being asked to prepare for conflicts in Central Europe 
and all the way to East Asia.
    Finally, Mr. Chairman, we are in a long war against a 
determined enemy. The key to our success is going to be 
sustained pressure in a targeted fashion across all the four 
layers that I talked about. If there are weaknesses in any one 
of those layers, we become vulnerable.
    If we keep the pressure on all four, we can prevent 
strategic attacks, like we have for the 15 years, and try to 
minimize the lone wolf attacks, while at the same time allowing 
our soldiers to prepare for the threats that loom on the 
horizon. Threats that you, Mr. Chairman, are very much aware 
of. Thank you very much.
    [The prepared statement of Ambassador Sheehan can be found 
in the Appendix on page 109.]
    The Chairman. Thank you. I guess I am struck by the 
similarities. Each of you basically see or describe the threat 
as having evolved in a similar way, spread out more 
geographically, more groups, but fewer spectacular attacks, 
more kind of lower level attacks.
    I guess I would like to just ask each of you, where do you 
see the threat going next? There are some people, for example, 
who argue that as ISIS gets squeezed in Iraq and Syria, the 
incentive for more spectacular attacks to show that they are 
still there, they are still viable, to be an attraction for 
their followers will grow, and that they will shift, basically, 
to more spectacular sorts of attacks.
    I think a couple of you touched on it. There are 
continuing--we have seen the use of chemical weapons in the 
Iraq/Syria theater. There continue to be concerns that 
chemical, biological, or radiological weapons could be in their 
hands.
    So I would just like to ask each of you briefly, where do 
you see this going next in terms of the threat? How will it 
evolve in your judgment?
    Professor Hoffman.
    Mr. Hoffman. Well, I think you are quite correct that as 
ISIS is continually squeezed, in order to maintain its 
relevance, burnish its credentials, it is going to have to 
strike.
    And I think over the past 2 or 3 years it has built up a 
capability in Europe to carry out, on the one hand, Paris-style 
or Istanbul-style attacks that result in mass casualties, but 
also, to animate or motivate individuals, such as the truck 
driver in Nice last July.
    For me, the big question is how long Al Qaeda will wait in 
the wings? I am convinced, although this is just intuition and 
gut feeling, is that Al Qaeda will absorb ISIS at some point.
    That as ISIS is weakened on the battlefield, it will take 
on those fighters, whether voluntarily or some sort of a 
hostile takeover. Because, basically, when you compare ISIS and 
Al Qaeda now, Al Qaeda is way ahead of ISIS in terms of 
leadership that has largely remained intact and also has been 
dispersed throughout the world, but particularly to the Levant, 
in cohesion, in ideology, and I would argue, in support.
    The one advantage ISIS clearly has is this external 
operations capability, which is in part, because Zawahiri has 
deliberately held back Al Qaeda. So Al Qaeda wants that 
external operations capability. And as I said in my testimony, 
that would, I think, escalate this conflict onto a different 
level.
    And this is why Al Qaeda, I think, has been seeding Syria 
in particular with some of its most valued senior leadership, 
including Saif al-Adel, amongst others.
    In terms of your points about the chemical weapons, I mean, 
think of what the Tsarnaev brothers did in Boston with a 
pressure-cooker bomb that they downloaded from the internet. Or 
think of the considerable alarm that a truck driver caused in 
Nice.
    Even a chemical weapon, some unconventional attack or an 
attack using an unconventional weapon, in a European city. And 
here I agree completely with my former boss and mentor, Brian, 
that the threat is much greater in Europe than it is in the 
United States.
    But an attack with an unconventional weapon like that, I 
think, would have profound rippling, and second- and third-
order effects, that would catapult the fear level that these 
groups are able to impose, to a much higher level.
    And the fact that ISIS has already regularly used chemical 
weapons, that there has been evidence in the past 3 years of Al 
Qaeda similarly developing sarin nerve gas, for example, that 
this is a potentiality we have to consider. And the 
psychological repercussions that would follow in its wake.
    The Chairman. Mr. Jenkins.
    Mr. Jenkins. I do think there will be pressure on ISIL to 
do something, particularly as it is squeezed in Iraq and Syria. 
That spectacular doesn't have to ascend up to the level of a 9/
11.
    I mean, I agree with Bruce, that, you know, if you look at 
the Paris attacks or the Nice attack, or even something that 
might be the equivalent of what we saw take place in Mumbai in 
2008 or in Nairobi more recent than that. That is a number of 
shooters, suicide bombers, hostage situations that can 
basically paralyze a city.
    I would also not exclude--because it has been a continuing 
quest of AQAP [Al Qaeda in the Arabian Peninsula], as well as a 
demonstrated capability of ISIL, and that is, sabotage of 
aircraft has to be included.
    Given the state of the world and the apprehension that has 
already been created by 9/11 and by the continuing terrorist 
threat, it doesn't have to ascend to the level of a 9/11 to 
have this major psychological impact, which is what this is all 
about.
    I would also agree that the foreign fighters themselves, 
apart from central leadership, they are going to scatter. They 
either die in Syria and Iraq, or they scatter.
    Some of them went to Syria, I am convinced, initially, not 
to fight and die in Syria, but to gain the contacts and 
training and experience necessary to bring the violent jihad 
back home.
    So as we make progress, and even evidence of that progress 
in Syria and Iraq, could see a burst of terrorist activity 
elsewhere. Europe is more vulnerable to that because of the 
proximity and the physical connectivity of a number of these 
fighters and people who stayed back home.
    The thing that gave the lethality to the Paris and Brussels 
attacks was the fact that foreign fighters were able to come 
back and hook up with people who did not go, but who provided 
an underground, a logistics infrastructure, weapons, and so on 
that could make them operate at a much more lethal level.
    Finally, completely separate from all of this in terms of 
the future, in terms of the trajectory of this ideology, this 
jihadist ideology is becoming a conveyor for individual 
discontents. That is, for individuals who are unhappy with 
their lives, who are aggressive, who are suffering from issues 
of substance abuse, even mental illness.
    This ideology resonates with it, and we are increasingly 
seeing individuals that, you know, if you ask me, are these 
crazy people or are these terrorists, my answer is yes. And 
that is going to be just the continuing phenomenon we are going 
to be dealing with.
    The Chairman. Ambassador.
    Ambassador Sheehan. Mr. Chairman, sometimes in the U.S. we 
theorize about strategies and shifts of strategies by 
terrorists. I actually believe that they have never moved away 
from their intention to conduct massive attacks within the 
United States, for both Al Qaeda, and I think ISIS would love 
to do it as well. It is part of their DNA and what they are all 
about.
    The reason they haven't done it is, quite frankly, because 
they can't. So I believe that if they could tomorrow, they 
would organize a complex and sophisticated attack against the 
United States.
    I remember when I was in New York City after 9/11, I used 
to give speeches around the city, and then people would ask me 
why haven't they conducted another attack since 9/11? I said, 
``Frankly, if they could, they would tomorrow. But they 
can't.''
    That drove people insane when I said that in 2003 and 2004, 
but it is a fact. It was the truth. A lot of people said, well, 
they have changed their strategy. They are waiting for the big 
one.
    The reason is they will conduct a big attack if they can 
tomorrow. And we have to keep pressure on them, as I said in my 
remarks, across all those layers, and that will prevent them 
from doing so.
    It is very difficult for them now to stroll 19 people into 
the U.S., and take flying lessons and conduct four simultaneous 
cellular planning operations and conduct an attack. That is 
just impossible for them to do now. Not only in the United 
States, but even in Europe, even though in Paris you had some 
dimensions of that.
    But again, after Paris and what happened in Brussels, you 
are seeing a lot of roll-up of those cells, and it is going to 
become more difficult for them in Europe also to conduct 
simultaneous, multicell attacks, which really become at the 
strategic level.
    So they have never lost the intention to do so. They would 
love to do it tomorrow, in my view, either of these 
organizations. I agree with Bruce; they are probably going to 
morph together.
    I wrote in 2006 that the only way, and Brian talked about 
whether they represent an existential threat to the U.S., I 
said then that the only way they could is by creating a WMD 
[weapon of mass destruction], probably an improvised WMD.
    And I do believe they still have that intention, whether it 
be chemical, biological, radiological. I would suggest, and 
then when I was in NYPD, what we tried to do about that was 
number one, always look for the cell.
    Always look for the people that want to do that. And that 
is an offensive strategy of investigations and undercovers and 
informants to try to break up that cell before they have the 
capability to conduct a sophisticated attack, like chemical, 
biological, or radiological.
    And then the second thing I would suggest is you try to 
protect the materials. When I was in New York City, we had 10 
hospitals that had pathogens that were very dangerous. We have 
reduced that to just a few right now and improved the security 
around them. The radiological materials that you find in 
hospitals and engineering firms have to be protected.
    And so in my view, to prevent a WMD, an improvised WMD 
attack takes two lines of effort. One, go after the cells. 
Prevent them from getting any sophistication. And second, make 
sure you have got the materials protected, whether it is 
biological pathogens, radiological materials, or dangerous 
chemicals.
    The Chairman. Thank you. Thank you all.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Yes, before I start my 
questions, we have two new members of our committee. We are 
still waiting for the third. I apologize. They were both here 
at the start. But now, well, we only have one.
    But we have Tom O'Halleran, who has joined us from Arizona. 
He has served three terms in the Arizona House of 
Representatives and one in the Arizona State Senate, former 
Chicago homicide detective, and a member of the Chicago Board 
of Trade and small-business owner. Welcome.
    And from New York we have Thomas Suozzi, who served for 7 
years as county executive of Nassau County, New York, and four 
terms as mayor of Glen Cove, New York. Welcome to the 
committee. We appreciate having you aboard.
    Mr. Suozzi. Thanks.
    Mr. Smith. The question I have, and following up a little 
bit on what Ambassador Sheehan said, I think you accurately 
described two of the things we have been most successful at. 
And I remember when people were complaining about the ``whack-
a-mole'' strategy and thinking there are some moles that need 
to be whacked.
    And it also can be effective, in exactly the way that you 
described, as it disrupts their ability to plan and attack. I 
also think the second key thing you said was that we need to 
work with partners. That making it a U.S.-led operation, making 
it any sort of U.S. invasion, you know, in the Muslim world, 
that simply reinforces the message of groups like Al Qaeda and 
ISIS. And we need to do that.
    Going forward, the two things that I would like you 
gentlemen to try--well, you already addressed one. That is the 
issue that Mr. Jenkins raised.
    I don't know what we could do about that is that basically 
every disaffected person in the world is now clinging to this 
ideology as an excuse to do the kind of thing that they 
probably would have done anyway. So trying to track down those 
dangerous people when there isn't necessarily a direct causal 
link to ISIS or Al Qaeda is going to be a law enforcement 
challenge across the Western world.
    But the piece of it we haven't really talked about is the 
religious piece. And the fact that ISIS and Al Qaeda, and this 
is a very controversial subject, because as I think it was 
General Petraeus said, our most important allies in combatting 
groups like Al Qaeda and ISIS are our Muslim friends.
    We need them on our side. These people are operating in 
their world. These people are hijacking their religion. They 
are the ones that are going to need to lead the fight.
    But I guess the biggest question is, well, one last 
ideological point. There are those, particularly in this 
current administration, who view Islam itself as illegitimate, 
that basically Islam is not a religion they have said. It is an 
ideology of subjugation.
    And if you take that approach, basically looking at all 
Muslims across the world and saying that, until you 
fundamentally change, we are going to view you all as a threat. 
That strikes me as a bad approach.
    But what I would like to ask is what Muslim allies--well, I 
am not going to like to ask. I am just going to ask it. What 
Muslim allies are there that we should work with? And how do we 
combat Al Qaeda and ISIS' interpretation?
    I forget the gentleman who wrote the book, but some years 
ago, when the chairman and I were on the what was then the 
Terrorism Subcommittee, we had the author of a book called 
``The Al Qaeda Reader'' come testify before us and basically 
say, you know, bin Laden has got an argument about his 
interpretation of the religion.
    Now I don't agree with that. There are a thousand different 
ways to interpret just about every religion out there. But what 
is, who are our best messengers for this? How do we best combat 
that, that ISIS and these folks are merely taking Islam to its 
logical conclusion, a view that I totally disagree with?
    But who do we look to counter it? What is the best 
counterargument? And how can we persuade the current White 
House to not go down that ``We are at war with all Muslims'' 
route, because I think that is quite literally a dead end. How 
would you wrap all of those religious issues together and give 
us a strategy?
    Whoever wants to take a crack at that is welcome. Don't all 
leap in.
    Mr. Jenkins. We are all going to look at each other to see 
who is going to go down that path first. Look, first of all, 
let me address pieces. You raised several issues, so let me try 
disaggregate those and address a couple of them separately.
    With regard to local allies, I think we all agree here that 
this is key. This is not something that the United States can 
do without allies in the world, in the Arab world, in the 
Muslim world to do this. And these allies in almost every 
single case are going to be imperfect allies.
    And so to put this into an operational question, they are 
not going to necessarily live up to our standards of democracy, 
of social agendas, and so on.
    And while we stand for those things, we want to be careful 
that we don't set an unreasonable bar that prevents us from 
working with locals, as imperfect as they are.
    And so that means in some sense we are going to be looking 
for a way we can work with every single Muslim state, Arab 
state that is willing to work with us on this. There are some 
obvious key ones, the Gulf States to be sure.
    Americans have, especially in recent years, a lot of 
trouble with Saudi Arabia, with the Saudis. But in fact they 
remain a key player, and we are going to be working with them.
    The Egyptians, again, in recent years, that has raised a 
number of problems. We are going to be working with them----
    Mr. Smith. I am sorry. We could go down the road of all 
these.
    Mr. Jenkins. Yes.
    Mr. Smith. I am really interested in the religious aspect 
of this----
    Mr. Jenkins. All right.
    Mr. Smith [continuing]. And how you think we should 
approach it?
    Mr. Jenkins. There, just to touch that one, I am not sure 
we can effectively persuade people to alter their views about 
religion. And I am not sure that that is necessarily a 
productive path. Patrolling ideologies or religious 
interpretations of the Koran or any other religious book is not 
something that we can easily do.
    I guess I am more in the realm of I don't care what they 
believe. What I care about is what they do. So they can believe 
all of these things that may create certain societal problems 
in various societies. My principal concern is operationalizing 
that into violent attacks.
    So just as we are in a court of law, I don't care what the 
motives behind a murder or something else. I am concerned with 
the action, and I am going to go after this organization to 
ensure that these individuals do not have the physical 
capabilities to implement whatever is their vision for the 
world.
    Mr. Smith. Thank you.
    Ambassador Sheehan.
    Ambassador Sheehan. Let me jump straight to one of the 
issues that is related, Congressman Smith, and that is the 
issue of whether we should designate the Muslim Brotherhood as 
a terrorist organization.
    First of all, when I was an ambassador for counterterrorism 
at the State Department, I was in charge of the designation 
process of an FTO [foreign terrorist organization]. It is a 
legal process. After it goes from State it goes to Justice. It 
is a legal process and a complicated one and a specific one.
    Muslim Brotherhood is an ideology. And there are groups in 
various countries across the world. If you were to go about 
designating them, you would have to do it by organization, 
which is what we do already.
    To try to do a sweeping designation, I think, would be 
problematic. And before we were to do that, I would suggest 
that we talk to our key allies, like President Sisi in Egypt, 
and ask him what the implications would be to designating an 
ideology like that as a terrorist when about half of the 
country voted for Muslim Brotherhood in their elections a few 
years ago. I am not sure that would help him.
    Mr. Smith. Yes.
    Ambassador Sheehan. And so what we want to do is help our 
allies. So I think that the notion of trying to broadly brush 
the religion of Islam as the problem is not productive.
    As I mentioned in my testimony, the fact of the matter is 
that across the Islamic world, they are plagued with about 10 
or 12 violent situations, wars, conflicts. In Afghanistan it is 
modernity against a Talibanesque version, all the way to tribal 
issues in Africa, and different types of problems that they 
have.
    And on top of those, you have basically a civil war between 
the Sunni and Shia sects being waged right now, which is sort 
of you could look at it as an Arab/Persian struggle or you 
could look at it as a Sunni/Shia struggle. But either way, that 
struggle is exacerbating the problems across the Islamic world.
    There is not a lot we can do about that except try not to 
make it worse and probably try to stand with our partners in 
the Gulf, in Egypt, Jordan, the UAE.
    And then deal with two of the most problematic of our 
allies, Saudi Arabia and Pakistan, which are at the root of the 
problem in many areas, historically, both of them, and 
fundamental to the solution. So we are just going to have to 
work with those two countries through these issues.
    Mr. Smith. Mr. Hoffman, you need to be very quick. I have 
taken too much time already.
    Mr. Hoffman. Sure. Actually, even though since 1989 I have 
written about how religion has motivated and inspired and 
changed terrorism, I don't think it is about religion anymore. 
I think it has much more to do with the very simple message 
that was articulated 60 years ago by Frantz Fanon in Algeria.
    It is about the catharsis of violence, the self-
satisfaction of violence against what is seen as an oppressive, 
subjugative system. It is really South against North, the 
undeveloped world or the developing world against the developed 
world. And this is why I think our counter-messaging has been 
failing because we have been treating it as a theological 
problem and it has gone beyond it.
    That is what I think accounts for the lone wolves, as Brian 
and Mike have described, but also, too, for these 40,000 
foreign fighters that have gravitated to the movement.
    I would agree completely with Mike that designating the 
Muslim Brotherhood would be counterproductive. This is exactly 
the strategy that terrorists want us to embrace. Terrorism, 
fundamentally, is a strategy of provocation where you provoke 
your enemy to undertake actions that will burnish the terrorist 
credentials, that will support their propaganda.
    In my view, firstly, we should only designate groups that 
are terrorists, ones that are, in fact, terrorist groups. 
Secondly, the Muslim Brotherhood is not a cohesive entity. 
There are elements of it that are violent. We should be tough 
on those individuals and sanction those individuals.
    But at the same time, there are Muslim Brotherhoods 
represented in the Jordanian parliament, in Tunisia, and other 
places. We should be seeking to encourage those moderates and 
those who believe in democracy in the Brotherhood to embrace it 
more, not painting them with a broad brush.
    Mr. Smith. Thank you, that is a very helpful answer. And I 
yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I am very grateful that Congresswoman Elise Stefanik is 
going to be the new chair of the Emerging Threats Subcommittee. 
And so she will be taking a lead on the issues we are 
discussing today.
    Over the weekend, I visited the World Trade Center in New 
York. It is always going to be a tragic reminder to me of the 
attacks of 9/11 as the Islamic terrorists initiated the global 
war on terrorism.
    Sadly, the largest number of deaths in the war, by the 
terrorists, have been people of Islamic faith. And I agree with 
Mr. Hoffman that we must be ever vigilant to eliminate safe 
havens of terrorists wherever they are.
    I am also grateful for the line of questioning by Ranking 
Member Smith. In a recent hearing from General David Petraeus 
to this committee, he emphasized on the importance of 
discrediting, quote, ``the ideology of Islamic extremism.''
    Taking that statement in consideration, each of you, could 
you describe the importance of counter-propaganda efforts and 
what role it may play in discrediting the ideology of 
extremism?
    Mr. Hoffman.
    Mr. Hoffman. I think discrediting the ideology of terrorism 
or violence, firstly, I think you have to deprive them of their 
allure. And I think the allure isn't so much their religion. It 
is that they are able to seize and hold territory and to 
exercise sovereignty over populations.
    I mean, ISIS has emerged very suddenly as this mercurial 
threat precisely because of its military capabilities. So I 
think first and foremost there has to be a military answer to 
taking down the state. Once that state is destroyed and once 
that allure is removed, then I think, counter-propaganda 
messages and counter-messaging can be helpful.
    Until then, though, I would emphasize less the message and 
more the technological solutions of depriving the terrorists of 
the platforms that they use to communicate those messages. I 
think that is actually, at least in the current situation, 
would be preferable to the counter-messaging. The counter-
messaging should prevent the resurgence of these groups, not 
attempt to address them right now.
    Mr. Wilson. Thank you.
    Mr. Jenkins. I would agree. The counter-messaging is not 
the leading issue here. The leading issue is dealing with the 
actual threat that they pose. And that means going after the 
asylums. It means dismantling the organizations.
    In terms of counter-messaging, that is extremely, extremely 
difficult to do. We are trying to change people's world views. 
Tough to do. I think our most effective counter-messaging is, 
in fact, not messaging.
    It is what we stand for, ourselves. That is, this country 
has always stood for certain values. These values have 
attracted people from around the world, admiration from around 
the world. And that is what we believe in.
    It is far more effective for us to project our own beliefs 
and to live by those beliefs than it is for me to try to 
discredit how someone else views God and their position in 
relationship to that God.
    Mr. Wilson. Thank you, Mr. Jenkins.
    And Ambassador.
    Ambassador Sheehan. Yes, Congressman, I actually believe we 
are winning the war of narratives, and we are winning by a huge 
margin. And you can see that every day as people stream out of 
the Middle East and risk mountains and seas to come to the West 
and to the U.S.A. when they could go to countries that have 
their own religious faith and language that are much closer.
    We are winning in narrative. Unfortunately, there is a 
small percentage of people that are attracted to this other 
nihilistic, violent narrative. And I, like my two predecessors, 
I think there is not a whole lot we are going to do about 
those.
    To the extent that we are involved in narratives, I believe 
that we could help our partners strengthen their alternative 
narrative. Instead of them trying to get slick talking points, 
or with glossy documents countering Koranic interpretations, I 
think what we--we could help our allies build up their 
narrative, what they stand for.
    And so if their young moderate people are willing to pick 
up a gun to fight for what they believe in, not just the 
jihadis that are streaming in to pick up a gun. And I think 
they are going to have to fight it out at the grassroots level.
    And they do, Congressman, in the villages in Afghanistan or 
in Yemen where the villagers there are opposed, or in Syria 
opposed to the radical views of the Taliban or Salafist-type 
ideologies and will pick up the gun and defend themselves.
    So I think that ideologically we are not doing too bad. The 
fact of the matter is there are a number of these people that 
we just have to get them. I don't think we are going to change 
their minds.
    Mr. Wilson. And, Ambassador and Mr. Jenkins, thank you 
both.
    And in this regard, I have had the opportunity in visiting 
the Middle East, to visit kingdoms like Bahrain, where they 
cite how grateful they are in 1895 that it was the Americans 
who built their first hospital.
    And then we are all familiar with the American University 
system from Sofia, Bulgaria, to Alexandria in Egypt, and, 
obviously, Beirut, that has been positive. And so I hope we 
keep citing that.
    Also I am really grateful when constituents express concern 
to me that people in their region want to live in the 14th 
century. I say, ``No, you need to visit the countries of the 
Persian Gulf. They all look like Hilton Head on steroids.'' And 
so it is much more positive.
    Mr. Hoffman, in your statement, you discussed Al Qaeda as 
``rebuilding and marshalling its resources to reinvigorate the 
war against the American people and American families.'' Can 
you tell us about the long-term threat?
    Mr. Hoffman. I think Al Qaeda has never changed, and it 
still sees itself in what it conceives as an existential 
struggle against the West and against the United States in 
particular.
    I think that it has taken advantage of our preoccupation 
with ISIS to rebuild its strength, particularly in South Asia, 
where, again, almost completely escaped notice when they 
created Al Qaeda in the Indian Subcontinent which was designed 
simultaneously to reinvigorate its presence in Afghanistan.
    And a year ago October, one of the largest arms dumps since
9/11 was discovered in Afghanistan that Al Qaeda had been 
preparing to spread its ideology to India which is, of course, 
the world's second largest Muslim population. And we already 
see its effectiveness in Bangladesh and in Burma.
    But I think elements like the Khorasan group are an elite 
forward-deployed special operations unit that is waiting for 
the proper time to take the struggle to the West and to the 
United States.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Just a reminder to the 
panel, we are now in a 5-minute rule, total, questions and 
answers. So I will try to be brief with questions and you try 
to be succinct with your answers. Appreciate that.
    Mr. Hoffman, you noted in your testimony, talking about 
chemical, biological, radiological, and nuclear, that we should 
be looking out for that. What is new that is happening?
    We have been discussing this and acting on this since 2001. 
So what now in 2017 should we be thinking about that is 
different than what we have been doing consistently through the 
DOE [Department of Energy] and the DOD [Department of Defense]?
    Mr. Hoffman. The threat, I think, is mostly in the realms 
where these groups can develop their own weapons or seize 
battlefield weapons and then deploy themselves. So certainly 
the frequency with which chemical weapons have been used by 
both sides in Syria, by groups like ISIS but also by the Assad 
government, I think, has loosened the restrictions or at least 
the moral restrictions on using these types of weapons.
    The fact that----
    Mr. Larsen. Does that change what we need to do within the 
DOD or DOE to operationalize a response?
    Mr. Hoffman. Well, at least from my perspective, since Iraq 
in 2003, there has been less and less attention paid on the 
terrorist threat using these weapons. And I think it has grown 
appreciably.
    So I think, first and foremost, it is to review what is in 
place now and what is being done and to be confident that it is 
designed to meet this burgeoning number of sanctuaries and safe 
havens which gives more scope for the research and development 
of these weapons.
    Mr. Larsen. Mr. Sheehan, would you agree with that 
assessment?
    Ambassador Sheehan. Yes. I would just add that it is very 
difficult to develop these type of weapons. Even an 
organization like an Aum Shinrikyo, which had tremendous amount 
of scientists, unlimited money, et cetera, you know, tried to 
do a chemical weapon attack in the subway system in Tokyo, 
killed seven people. They could have done better with two 9 
millimeters; very, very difficult to do.
    I believe that the biggest threat, as I said in my remarks, 
would be less concern about them building a WMD overseas than I 
am about an individual within the United States that becomes 
radicalized, so has access to the materials. And I think that 
is where the focus should be.
    Mr. Larsen. Okay.
    Back to Mr. Hoffman. In your testimony, written testimony, 
on page 9, I think I counted five steps or five actions we 
ought to take. But one of those has to do with your suggestion 
that we have strict 90-day rotations of division-size regular 
military in some of these countries.
    It is called boots on the ground. That is what we call 
that. And what I have found here in 16-plus years in Congress 
is that strict 90-day rotations become unrestricted, unlimited 
rotations.
    So are you, in fact, advocating as part of a proposal for 
U.S. boots on the ground beyond special operations forces which 
you also support?
    Mr. Hoffman. I am, sir. And actually you know, Mike Sheehan 
also talked about this in the context of the French 
intervention in Mali. I think the problem is, you know, we have 
tried invading countries, and that obviously doesn't work.
    I would argue, for the past decade or so, we have tried the 
indirect approach, leadership attrition, building up post-
nation forces, counter-messaging. It is not working. The spread 
of ISIS and, I think, the resilience of Al Qaeda has 
demonstrated that.
    So I was trying to identify the sweet spot in the middle 
where, if our enemies, as I believe, have enmeshed us in this 
war of attrition or this war of exhaustion where they are 
trying to provoke our liberal societies to become more 
illiberal to target these groups that will burnish their 
propaganda and their recruitment, I think it is important to 
try to break that cycle, to break that war of attrition.
    And in that sense, I think, having taken down, for 
instance, Mosul sooner than 2 years would have dealt more of a 
blow to ISIS' allure and would have probably had a greater 
impact on dissuading the 40,000-plus foreign fighters that have 
gravitated to the caliphate from over a hundred countries than 
the efforts we have undertaken thus far, which aren't working.
    Mr. Larsen. Okay.
    Mr. Jenkins, do you have a response to boots on the ground 
and how that plays into a change in operations and tactics?
    Mr. Jenkins. You know, you have two former infantry 
officers here. And the right answer in infantry school is it 
depends on the situation and the terrain.
    Clearly, we do want to avoid large-scale commitments of 
U.S. forces on the ground. It changes the dynamics. It changes 
the narrative. It is unproductive and should only be done in 
circumstances where it appears there are no other options, it 
is the right thing to do.
    And but here I would agree with both Professor Hoffman and 
Ambassador Sheehan. If we are going to go in with anything 
larger than a special operations or small teams of advisors, 
then it has to be a precise mission, achievable within a 
limited amount of time.
    And you go in and you get out fast. Whether that is 60 
days, 90 days or 97 days, that will depend on the nature of the 
mission.
    Mr. Larsen. Yes, thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ambassador Sheehan, I want to go to the points that you 
brought up. You listed the 10 points that you believe that we 
need to continue in order to defeat, through counterterrorist 
mechanisms, these terrorist organizations' effort.
    And it sounds like much of that are existing policies and 
you are only wanting to make sure that we intensify and 
maintain the rigor and vigor of effort in those areas. I guess 
you would call it war of full-court press.
    And I understand your vision within that is to deny the 
ability for these organizations to operate at the strategic 
level. And a secondary effect is to limit the number of lone 
wolf attacks and them being able to organize.
    What I noticed, though, is missing in what you lay out 
there is the endpoint at which you believe we would be able to 
demonstrate either some kind of success or some diminution of 
the ability for those groups to operate, fewer terrorist 
attacks.
    Give me your perspective. Is this something that we are 
going to have to continue in the way you describe it and at the 
intensity that you describe it ad infinitum? Or is it something 
that, at some point, we are going to achieve some level of 
success? Give me your perspective, too, on what the path is 
with this effort.
    Ambassador Sheehan. Thank you, sir, and for better 
articulating my own remarks. I appreciate that and the 
basketball analogy which I used on the full-court press.
    I never use the term defeat because I think, even if we 
could, it would require such a commitment of resources that is 
not commensurate with the level of the threat. We have a lot of 
big issues out here that this committee is dealing with.
    And the U.S. military, I just spent the last few weeks in 
the Pentagon talking to the Army about how they are trying to 
prepare for this wide range of threats from cyber to East 
Europe, East Asia, different types of irregular warfare.
    We can't expend all our national resources on this threat. 
I believe that what we are doing has worked. That is why I 
spent time on that in my remarks. For the last 15 or 16 years 
it has been working.
    We shouldn't demoralize ourselves. It is so easy to sit 
back and criticize everything. Around the world, things are 
falling apart. But here in the U.S. we have had success.
    I believe, particularly from my experience at NYPD where I 
studied deeply these disaffected, the investigations that we 
had, hundreds of them within the metropolitan area and, across 
the country, the FBI's cases and knowing about the 
international.
    I don't think there is any way that we are going to stop 
these jihadis from attacking us over the next 20 to 40 years. 
It is impossible. So the notion of defeat which somehow means 
we are going to eliminate this threat, in my view, is wishful 
thinking.
    So what I always talk about is preventing the strategic 
attack and minimizing the lone wolves. Over time, this nihilist 
ideology, which does have an appeal--the narrative works--but 
over time, it will wind up on the ash heap of history with the 
other isms of the 20th century: authoritarianism, Naziism, 
communism, and others.
    But it is going to take some time, and it is going to burn 
out from within itself, with its own contradictions. And but 
that is going to take some time. As I say, this is at least a 
generational fight.
    Mr. Wittman. Very good. Thank you, Ambassador Sheehan.
    Mr. Hoffman, in your testimony, you spoke about our 
counterterrorism actions as it relates to ISIS saying, though, 
that there is a re-emergence of Al Qaeda. And you talk about 
what we would need to do there with both air operations, ground 
operations, special operators on the ground, a division-level 
effort there on the ground to be able to do that.
    Give me your perspective on why you, first of all, believe 
that Al Qaeda is in this state of resurgence. And is it based 
on Al Qaeda's fighters and their vision? Or is it based on 
their financial resources and their media networking?
    Give me your perspective about why you think Al Qaeda has 
re-emerged and what you think their effectiveness is in that 
re-emergence.
    Mr. Hoffman. Well, I think the first reason I would argue 
that they have re-emerged is that, I mean, they certainly have 
the global presence. That hasn't contracted. They are very 
quietly--groups have gone over to ISIS but they have cultivated 
new partners and new safe havens.
    Secondly, the appearance of Al Qaeda in the Indian 
Subcontinent, that I think they have pursued a dual geographic 
strategy. On the one hand, they sent some of their most senior 
leaders, Saif al-Adel, Muhsin al-Fadhli, Haydar Kirkan. 
Fortunately, two of the three we have killed, in fact, which is 
certainly an important plus.
    But on the one hand, as I said earlier, to create the 
Khorasan group or to have this forward presence and, I think, 
to groom and cultivate Jabhat al-Nusrah, now Jabhat Fatah al 
Sham, as their Middle Eastern operation.
    At the same time, which to me was astonishing, in January 
2014, while everybody was looking at developments in Syria, for 
example, Al Qaeda announced the creation of Al Qaeda in the 
Indian Subcontinent, seeking to deepen its roots there and to 
use that, similarly, its presence in Pakistan as a launch pad 
to radicalize the region.
    So the movement of its top personnel to Syria who have not 
really engaged in the fighting, that have been hanging back, 
suggests to me not that they have embraced a new approach to 
their ideology that is peaceful coexistence to the West. In my 
view, I hope I am wrong but I don't suspect I am, is that they 
are girding their loins for the next battle.
    They are waiting, again, precisely what concerns me the 
most is that the terrorists, in a sense, are engaging in their 
strategy of provocation. And to some extent, it is succeeding. 
It is causing profound divisions in societies. It is leading to 
nativism and populism.
    This is the best propaganda that they can seize upon. And 
unfortunately, we are falling into the trap. And that is why my 
argument is, like all adversaries, guerillas, and terrorists, 
they seek to enmesh their stronger opponents in these prolonged 
wars of attrition and enervation.
    We have to break that--I don't think--it is a generational 
fight, just as Ambassador Sheehan described. But we can't 
really survive this more than a few generations. So we have to 
start ending it now.
    Mr. Wittman. Got you. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. I thank you very much for your testimony and 
causing us to think seriously about how to proceed. There seems 
to be a common trend of thought through all of your testimony. 
And I would like you to expand on this, and that is that our 
actions cause a counterreaction.
    And that counterreaction might be to more advance the cause 
of radical jihadism. There are some recent examples, and I 
don't want to get too political here, one of which is the 
immigration ban. But there are others that have taken place, 
and particularly military actions.
    And I just want to be quite clear in my mind that we 
should--do I understand you to tell us that we should always be 
mindful of the reaction that our actions will cause, and that 
we ought to avoid actions that would give the ISIS or Al Qaeda 
a propaganda and recruiting and more radical attacks?
    Is that the case? And I just want to be quite clear so that 
we understand that reaction is going to happen.
    So let us just start--so Mr. Sheehan and we would come on 
down from--I mean, Ambassador, if you will, we will just hear 
from all of you on this.
    Ambassador Sheehan. Look, if this is not an existential 
fight, that is, if our survival is not at stake, obviously at 
this moment, that means we get to make choices about what we 
do. In making those choices there are tradeoffs. There are 
benefits that might be achieved, but there are costs that come 
with those, making those choices. That is on our side.
    On the other side, we are dealing, as Professor Hoffman has 
underscored several times, we are dealing with an adversary 
that seeks to provoke us to doing counterproductive things. And 
even without that provocation, simply by our massive military 
power, by our size, we can end up doing things that will create 
backlashes.
    So that is the equation that we are always looking at. 
There are a lot of things we can do. One has to look at each 
one of those things and say what is this going to get me? What 
cost am I going to pay, and what risks I am taking?
    If this were existential, we don't get to make that choice. 
But here, especially since this is a long fight, we have to be 
very, very careful about how we make those choices.
    Mr. Garamendi. I have a feeling that I am going to get the 
same answer from the remaining two of you.
    Quickly, and then we are out of time in 2 minutes, so I 
guess I just want to make my own comment here and then I will 
let it go, is that it seems to me this is the principal point 
and the principal issue that we ought to be looking at as we 
develop policy and the procedures as well as funding for the 
various activities that are going forward and that we ought to 
be very mindful, in every step we take, that there will be a 
reaction.
    And that reaction might actually be negative to us and this 
cost benefit, I think that was about the words you were using, 
Mr. Jenkins. And I will let it go at that. And hopefully we 
will keep that in mind, both here within Congress as well as 
within the administration, and avoid those things that are 
going to be counterproductive. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Jenkins, you mentioned two countries in your opening 
paragraph. You mentioned Russia and China. And I wonder while 
we don't share the values with those countries, or they don't 
share our values of human rights and personal freedoms, with 
regard to terrorism, don't we have a shared interest?
    Don't they see this issue of terrorism as a threat in their 
country as well?
    Mr. Jenkins. In the broader sense, we do share an interest, 
more so probably with the Russians than with the Chinese, 
although the Chinese have tried to enlist us in their efforts 
against dealing with Muslim separatists in Western China.
    In the case of Russia, there are very real concerns about 
the threat of Muslims. I mean, in Russia, this goes back 
centuries in their history.
    Having said that, though, having a generalized sense of 
common concern, I was part of an effort in the late 1980s, a 
team that went to Moscow and conducted a series of meetings to 
see if, at that time, the Soviet Union could cooperate with the 
United States in combatting terrorism.
    And getting beyond the general statements, that we agree 
that we are both concerned about this and really getting it 
down to sharing intelligence, to coordinating operations, that 
is difficult because here at the operational level, there are 
serious differences in how we view the world, serious 
differences in how we do things, and a significant level of 
mistrust.
    And it is just very, very difficult what you can achieve 
within that context.
    Mr. Scott. All of you, in your testimonies agree that the 
chaos in the countries in the Middle East, various countries, 
is what creates the ability for terrorists to not only exist 
but to grow and to, in many cases, create their own economies.
    I just wonder if, when we see an area where we know that 
there are, say, 20 to 50 members of ISIS or Al Qaeda, if we 
shouldn't be more aggressive in taking action to eliminate them 
when it is 20 or 50, before it is 200 or 500 and they have the 
ability to take a country or to take a city.
    Would you care to comment on that?
    Ambassador Sheehan. I----
    Mr. Scott. How would you handle it?
    Ambassador Sheehan. I agree, Congressman. In fact, that 
situation happened in Yemen a couple years back. We had 
narrowed our policy in Yemen as to striking only those that had 
an immediate direct threat to U.S. safety and security, which 
narrowed some of our targets.
    But a couple months later, there were a few hundred Al 
Qaeda guys doing a dance in a village in central Yemen and 
later Al Qaeda took over cities and port cities in Yemen. And 
there was some more flexibility in going after, broadening 
that, the aperture of those strikes.
    And I would certainly believe that there are conditions 
wherein that we need to pick up military action to prevent the 
massing of Al Qaeda or ISIS forces when that happens to prevent 
what could come forward.
    Mr. Scott. If I could ask one final question? Obviously, 
the refugee situation that has been created with the war in 
Syria, a lot of humanitarian crimes there. It is creating a 
tremendous amount of pressure on people who do share our values 
and who do share our interests, countries like Jordan, 
countries like Israel.
    Is there a solution in Syria that does not include the 
United States working with the Russians?
    Ambassador Sheehan. I believe there is no solution in any 
country where there is conflict without an agreement with the 
major stakeholders that are willing to put people on the ground 
and fight over it unless you want to take it over and dominate 
every inch of the security equation in that country.
    And if you are short of that interest, which I believe no 
one has the interest in doing that in Syria, means you have to 
sit at the table with those that are going to have that type of 
power. That means Russia, Iran, and all the other actors that 
have a stake in Syria have to be agreed with the solution or 
you are going to continue fighting for it.
    Mr. Scott. My time has expired. But I agree with you 100 
percent. If you have to walk through a pit of rattlesnakes, put 
on your snake chaps and let's get it over with. And the sooner 
we do it, the sooner some people will start to feel some relief 
in that part of the country.
    Thank you, gentlemen.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses for your thoughtful testimony this morning.
    Ambassador Sheehan, I want to go to your 10-point plan and 
particularly the fifth point which is a pretty forceful 
statement that, if we are talking about using military force, 
as you just mentioned in the prior question, that it is a 
pretty strong statement that air power should be the, you know, 
the vehicle and also a pretty strong statement that we should 
be extremely frugal about the uses of ground forces.
    I am reminded of Secretary Gates' departing statement that 
any future Secretary of Defense who recommends a large ground 
war to a President ought to have their head examined. And I was 
wondering if you could, again, just sort of embellish a little 
bit that bit of advice.
    Ambassador Sheehan. Thank you. Thank you, sir. On the issue 
of air power--air power doesn't solve everyone's problems. It 
is not a panacea. However, since about 1944, we have dominated 
the airs of the world in most of our combat situations, 
although in Vietnam it was tricky sometimes for some of our 
pilots fighting against those air defense and jets. Generally, 
we have controlled the sky.
    And when you can control the sky, it gives you an enormous 
advantage physically, on the ground, if the condition exists 
when there is massing of the enemy. You can diminish that and 
then give your ground forces a much better chance.
    So I think that aviation gives us a technological advantage 
that can turn a situation. But never kid yourself that it is 
going to be the solution.
    So I believe that, for instance, in Afghanistan, when 
General Campbell was asking for more authority to use combat 
aviation support, the operations there, I think that was an 
important step forward in order to try to keep the Taliban at 
bay. Because the Taliban are expanding in areas. They are 
threatening the stability of that country.
    Yet I would be very, very careful about pouring too many 
troops in there. It is very expensive. It creates its own 
problems. And one way to try to push back the Taliban would be 
by having more liberal use of combat aviation to pound them.
    When I was in El Salvador in the early 1980s, the FMLN 
[Farabundo Marti National Liberation Front] was able to have 
columns of several hundred people. And when they had that 
capability, they threatened the stability of the whole country. 
By the time we brought in helicopters by the Salvadorans--and 
this is the problem in Afghanistan. We need an Afghan aviation 
solution there. And that has been a mess for 10 years.
    When they brought in the helicopters, it forced the 
guerrillas to dissipate, and they could never mass in more than 
a group of 10. And that was so debilitating to them, that it 
was very difficult for them to strategically threaten the 
government anymore, because of that ability from the air.
    It didn't eliminate them, not in any case. That has to be 
done on the ground. But it can be used as a way to at least 
hold people off.
    When the AQIM was coming south and threatening Bamako, it 
was French attack helicopters that came from Burkina Faso, and 
stopped them dead in their tracks.
    It was really just two French attack helicopters. One of 
the pilots was shot and wounded and died later. Two helicopters 
stopped that entire column. And then they pushed them back 
across the river and scattered up in the north.
    And so the judicious use of air power can turn a situation. 
But again, certainly not going to answer all of your problems, 
but it can be a major force multiplier.
    Mr. Courtney. Thank you. I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    My question this morning deals with the increased use of 
online propaganda and social media by terrorist organizations. 
Whether we are talking about formal magazines like Dabiq or 
Inspire, published by Al Qaeda and ISIL, which have millions of 
readers across the globe. How do we effectively counter this 
propaganda?
    Do you believe we have a strategy to counter this 
propaganda? What have we gotten right, and what do we need to 
do better?
    I will start with Mr. Hoffman.
    Mr. Hoffman. I think we have had a strategy, but it is 
almost like the Dutch boy trying to put his fingers in the dike 
that is burgeoning in on him. They are communicating on 
multiple levels. It is not just theological.
    It is as I described earlier, this appeal to a very classic 
Frantz Fanon wretched of the earth ideology that glorifies 
violence, that sees violence as a catharsis.
    But actually, I have to say, I don't think Dabiq and 
Inspire are the main problems. I mean, those appeal to the 
peripheral, the hangers-on like the Tsarnaev brothers, who 
tragically are capable of killing handfuls of people. What 
worries me is that groups like ISIS in particular, Al Qaeda as 
well, are using the dark web.
    They are using highly secure apps like Tor, for instance, 
to get into the dark web. That is where all of their activity 
that is the most consequential, that is radicalizing 
individuals that best suit their skill sets, not just the 
hangers-on, the losers, the malcontents who are attracted to 
their kind of violence, but people that have skills in the 
computational sciences, that are engineers.
    It is through the dark web. And that is, I think, the 
dimension of the struggle that is really gathering momentum 
now. And we are just coming to grips with understanding the 
Dabiqs and Inspire, and they have already moved on.
    And I think this was demonstrated over the past few years 
where social apps like, you know, Twitter and that type of 
thing, you know, I am not sure about really the impact that 
that has.
    It is more the encrypted communications from WhatsApp or 
Telegram that is facilitating their, both their recruitment and 
their terrorist operations, or at least the most consequential 
forms of recruitment, and the most serious types of terrorist 
operations.
    Ms. Stefanik. Mr. Jenkins.
    Mr. Jenkins. The issue here is not--I would agree with 
Professor Hoffman. The issue here is not the propaganda and, 
you know, that comes along with how to dismantle and clean an 
AK-47 in one of these magazines that is the problem. That is 
going to take place.
    In terms of much of the open web communications and social 
media communications, that has given them some advantages, but 
it has given our intelligence and law enforcement operations 
also a great deal of insights and ability to identify people 
and open investigations. A lot of the success we have had in 
uncovering plots has been because people have been 
communicating on the internet.
    From the standpoint of the most, or the greatest danger, 
operationally, I would agree with Professor Hoffman, it is 
skilled people communicating in a clandestine environment, and 
being able to do that, that is a great concern. And from the 
standpoint of crime other than terrorism, as well as in 
terrorism, that is going to be a future battlefield.
    Ms. Stefanik. And Ambassador Sheehan, I am going to ask a 
follow-up to you. Given your time as Assistant Secretary of 
Defense for Special Operations, what role does the Department 
of Defense play in this area of countering propaganda, and what 
more does the State Department need to be doing? And is the 
Global Engagement Center the most appropriate place to deal 
with this issue?
    Ambassador Sheehan. Thank you, Congresswoman, and 
congratulations on a new chairmanship. That is a great 
committee, by the way.
    Look, I have to admit, I am a skeptic on these efforts for 
counter-messaging. We have been at this for 20 years. There 
have been volumes. They are stacked up in all the think tanks 
and universities around the town. It is not a new thing. We 
have a big effort at State Department, run by one of my 
predecessors at SO/LIC [Special Operations/Low-Intensity 
Conflict].
    Yes, that is important, but I think the effort has to be in 
helping the host nations deal with their problems, as I 
mentioned before. Inspire is a problematic magazine, that you 
brought out.
    And as Mr. Jenkins said, they do assembly, disassembly. 
They encourage people to attack, and once in a while they will 
put a bomb-type instruction on there, which you can get other 
places on the internet.
    So I think that yes, we need to do this at the State 
Department and DOD and my office at SO/LIC. I had a small 
office that was also engaged in that. But I find that, I think 
the most important thing that we can do, in terms of counter-
messaging, is help give political support to our key allies in 
the region.
    That, I think, is more important to help them establish 
some legitimacy within their countries, and try to roll back 
the movements that are festering within their country. If we 
could focus on helping them, rather than trying to come up with 
some snazzy talking points, I think our effort would be better 
spent.
    Ms. Stefanik. Thank you. I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask, and anyone on the panel can answer this, 
what lessons can be drawn from the merger of ISIL and Boko 
Haram in Sub-Saharan Africa, and applied to the potential 
merger of ISIL and Al Qaeda in the Middle East and the Arabian 
Peninsula.
    And I wanted you to kind of expand on what you touched on, 
which one of you touched on a little bit earlier, about what do 
these terrorist organization mergers mean for U.S. 
counterterror strategy, moving forward.
    Mr. Jenkins. Let me just say briefly, I would be a little 
bit cautious about the use of the term merger, because we are 
not really talking about mergers here. We are talking about 
affiliations, which can take place on multiple levels. There 
are shared concerns, there is, to a certain degree, in a 
broader sense, a shared sense of ideology.
    But these on the receiving end of these, or let's say, on 
the Boko Haram side, and the other local sides, being a part of 
either an Al Qaeda network, or an ISIL network, provides 
prestige.
    It elevates you among your local rivals. It may bring some 
modest amount of resources, so it has some advantages in terms 
of affiliation. It makes you more important than you are.
    On the other side, it gives the advantage of you don't 
control this entity yet, but you may be able to influence it. 
It gives you a new base of operations. It gives you access to 
potential recruits down the road. And left alone, over time, 
you may be able to increase that degree of management and 
control over these things.
    But they are at all different levels. They complicate 
things for our side, but they have these narrow advantages. I 
still think that, in many of these cases, we can look at the 
local groups who are attracted to this and make progress with 
them, both a combination of pressure, and in some cases there 
may be some incentives and tempt them to peel them away from 
these parent organizations.
    But they are not really mergers. Each side sees a tactical 
advantage in these connections.
    Mr. Hoffman. Right now I would say that the biggest danger 
is that these alliances or marriages of convenience or 
affiliations with one another are played out in ISIS' strategy.
    Abu Bakr al-Baghdadi has already said to would-be foreign 
fighters, if you can't come to the caliphate any longer, if you 
can't come to Syria or Iraq, go to our wilayets, go to our 
provinces, our branches. So it becomes escape valve, a 
sanctuary, an alternative venue to reengage the battle. So I 
think that is the first thing.
    Secondly, I think all terrorist groups are like the 
archetypal shark in the water; they have to constantly move 
forward to survive. And in that sense, they become 
opportunists.
    And smaller groups seek to hitch their stars to the 
fortunes of what they see are rising stars. And this is a 
constant process. And in that case, usually when a smaller 
group does affiliate or associate itself with a larger group, 
it brings in more recruits.
    It gives them greater access to expertise, which enhances 
their own violent capabilities, and it enables them to engage 
in the stock-in-trade of terrorists, which is even higher 
levels of violence, such as we have seen in Nigeria from Boko 
Haram, where even the most egregious successes of the past are 
now surpassed by this new association, by this new support, by 
the new expertise and new recruits they are able to attract.
    Mr. Veasey. In all of Sub-Saharan Africa, which of the 
newly emergent terrorist organizations do you think pose the 
greatest threat to the U.S., based on scope and influence?
    Mr. Hoffman. I am going to give a counterintuitive answer, 
and say Al-Shabaab in Somalia. And the reason I say that is 
sort of the dominant paradigm of counterterrorism for the past 
decade plus has been that we have done a good job of hardening 
aviation security against terrorist threats.
    But last February, in Mogadishu, Al-Shabaab operatives 
affiliated with Al Qaeda, exactly underscoring my point about 
this exchange of technology and expertise, were able to smuggle 
a bomb inside a computer laptop, and detonate it. Fortunately, 
it was not at cruising altitude, so the plane--it wasn't an in-
flight tragedy.
    But nonetheless, admittedly, the security in Mogadishu, I 
suspect, is not as good as at other airports. But nonetheless, 
I think that was an important incident for several reasons.
    Firstly, it showed these groups, and Al Qaeda in 
particular, still has an interest in targeting commercial 
aviation; secondly, that their ongoing efforts to effectively 
develop the technology to do so, proceeds; and thirdly, that 
they are willing to use affiliates or associates in far-flung 
places, to potentially to be their foot soldiers in a new 
campaign against commercial aviation.
    Ambassador Sheehan. If I could add, Congressman, I agree 
with Professor Hoffman that currently, right now, Al-Shabaab 
would be the biggest threat.
    Although over the horizon I would take a very close look at 
the North African groups in Libya. And a lot of those folks are 
Algerians that are veterans of some brutal wars over there. 
These are some really violent and skilled terrorists.
    So I think that we have to keep a very close eye on Libya 
and the spillover from Algeria. That they are still operating 
in parts of Algeria and in south of Libya, into Niger and over 
to Mali, as well as through the region. Those are some tough 
geography there, and there are some really, some tough 
customers in that vicinity that could pose a big problem in the 
future.
    Mr. Veasey. Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your insights.
    Ambassador Sheehan, I appreciate your thoughts on the 
asymmetric advantage we have with air power, as an airman 
myself. And I agree, we have got to take advantage of where we 
have those asymmetries.
    And as we are looking at that, all of you have mentioned 
this is a long-term fight. How does that translate to your 
thoughts on force structure? This committee has pushed back 
pretty strongly on keeping the A-10 flying for its unique 
capabilities. It is kicking butt right now, over in this fight 
against ISIS, setting records of munitions expended against the 
enemy.
    We need fifth generation fighters. But if we are asking a 
fifth generation fighter to do all of what we need for air 
superiority in places of denied access, plus all of this, on 
the other end of the intensity of conflict, does that make 
sense?
    You know, you don't need a Ferrari to try and do what a 
pickup truck does. Maybe you need a Ferrari and a pickup truck. 
So what are your thoughts on force structure for this long-term 
fight?
    Ambassador Sheehan. Well, since I am no longer in 
government, I can say, if the Air Force wants to get rid of the 
A-10, then I think the Army should pick it up, in addition to 
the AC-130 gunship as well. The Army, of course, has its own 
aviation assets, helicopters, and those are fantastic.
    But I do desperately believe, as a former infantryman and 
special operator, that we need those fixed-wing assets that can 
hang up. You know, drones can fill a lot of the gaps, but there 
is nothing like a 105, or the mini-guns of an AC-130 that 
change the battlefield.
    Or even a C-47 with a machine gun hanging out of the door 
can change the battlefield, in a scenario, in conflicts like 
this, where you are fighting irregulars that have AKs and 
technicals, you know, Toyota trucks with machine guns in the 
back of it.
    So I believe that these aviation assets are a tremendous 
game changer. We should hopefully keep them within our 
inventory and also look to provide these type of assets to our 
partners. I think that the biggest failure, and I put myself in 
the box of failing, is our Afghan aviation program. It is a 
complete debacle.
    And we have gotten arguments here in the Congress and in 
Washington about whether we should provide Russian-made 
helicopters to them, or Sikorskys, and it just constipated the 
whole issue. No one is in charge of that program over there, 
and it is unfortunate. The Afghan air force is so far behind 
the army in the development over the last 15 years.
    And I think we need to look at that across the board, 
Congresswoman McSally, in terms of looking for security 
assistance for aviation for some of our partners, not the 
really expensive stuff. Old Hueys with M-60 machine guns 
hanging out of the side of them, C-47s with mini-guns, these 
are game changers. And these countries can use those type of 
systems.
    We might have to provide the maintenance for them, and 
pilot training, but they can fly them, and they can shoot out 
of the side of them.
    Ms. McSally. Great. Thanks, Ambassador Sheehan.
    I want to shift focus. I am on the Homeland Security 
Committee, and one thing that we have been looking at is 
jihadists, this new phenomena of young women and girls becoming 
foreign fighters and becoming recruited to be radical.
    Their average age of the Western foreign fighters is 21, 
versus average age overall is 24. The Americans, one in six are 
women. And a very small number of them, who have traveled, get 
out, versus about 30 percent of the men are able to get out. So 
it is a very different phenomena.
    We have been taking a deep dive on this in Homeland 
Security. So they are not just victims. They are hardened 
jihadists recruiting others to come join the fight.
    Do you have any perspectives on that and how we 
specifically target the narrative and the approach to stop the 
propaganda to young women and girls? Any of you?
    Ambassador Sheehan. I can take a quick shot at it.
    Ms. McSally. Yes, sure.
    Ambassador Sheehan. I do believe there is a small 
percentage of women that have become jihadis, and that is a 
problem. The bigger problem is that, and I hate to sound 
chauvinistic here or whatever, but generally speaking, males 
between about 18 and 30, sex is on their mind.
    And one of the great recruitment vehicles of ISIS was, come 
to ISIS, we will get you a wife and a girlfriend if you pick up 
an AK and fight for us. That was a huge incentive for some of 
these folks.
    And if you look at Boko Haram, that disgusting nihilist 
organization, a lot of their most egregious acts were in 
kidnapping women and forcing them into these raping 
relationships that they call wives.
    And so the bigger problem, in my view, is the issue of sex 
as a motivator for these young jihadis to join these groups in 
order to get a wife, which they consider a wife, but we know is 
an absolute aberration.
    And I think that area needs a lot more work. It became 
obvious with Boko Haram. It was a big news issue for about a 
week here in the United States, and it has kind of drifted 
away.
    Ms. McSally. Great, thanks. I am over my time.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I would like to 
thank the witnesses for their testimony today.
    Mr. Hoffman, I really appreciate your point about one of 
the goals of terrorism being to provoke a response from the 
larger force of a larger country.
    And I think we can all think of ways in which we may have 
been provoked into expected and desired responses by terrorist 
organizations. Can you point out some ways in which we have 
confounded terrorist's expectations, where we have done the 
thing that they didn't expect and where that has been 
successful and how we might capitalize on that?
    And if you can't, can you suggest one?
    Mr. Hoffman. I think where we have confounded terrorism 
expectations is especially Joint Special Operations Command, I 
think is the--I mean I don't have the military credentials that 
my two colleagues do, but from my observations as an 
academician, the operation of the Joint Special Operations 
Command [JSOC], especially in Iraq.
    But in the year since, the way that they have closed the 
operational loop in terms of getting timely intelligence 
through interrogators that are forward deployed on the 
battlefield to get that to the operators, the innovation that 
they have been able to--I mean, JSOC is almost unique in terms 
of the authorities that it has, the ability to fire people, for 
example.
    So they have been on the cutting edge, I think precisely 
because they have been the most innovative and in terms of 
finding solutions and learning the lessons of the past, both 
what worked and what hadn't worked. That to me is I think, you 
know, been the most stellar weapon we have used against 
terrorists, amongst many. But in terms of a force structure 
group.
    Mr. O'Rourke. Thanks.
    Question for Mr. Jenkins. We had a few years ago the leader 
of one of our allied countries in the Middle East say something 
to the effect of, you know, you, the United States, shouldn't 
be leading this fight.
    We should. Muslim majority countries, Arab countries in 
this case, and we certainly want your support and your help, 
but we need to be the ones leading on the battlefield. And of 
course, everyone applauded. It is exactly what we wanted to 
hear. It never came to pass in any real way.
    What are your thoughts on the potential or reality of the 
United States creating a moral hazard in the region? Our allies 
know we will always be there. And there really are no 
conditions that I have seen us effectively set on our help and 
our ability to intervene militarily in that region.
    Is there any way to change that calculus for our allies or 
their perception of our willingness to intervene militarily?
    Mr. Jenkins. Well, you know, your observation that many of 
these high-flown statements when we then leave them to their 
own devices they sort of dissipate. However at the same time, 
we have also had a tendency to stiff-arm some of our allies.
    I mean, they are not going to operate at our level of 
military. I don't mean this to sound like some sort of an 
imperialist statement, but they are not going to operate 
necessarily at the levels of the U.S. Armed Forces in terms of 
their capabilities.
    And I think sometimes, our impatience to get the job done 
fast, our determination that we are going to do this right, has 
caused us to have our allies--in a sense, we have pushed some 
of them aside needlessly, and that hasn't been helpful. I think 
there is a way in some cases where some of these offers have 
been made.
    We know if we just leave them completely alone they won't 
do anything. So the challenge for us is can we work with them 
to put together what they have stated they are willing to do 
without coming in and taking over management of the store? 
Americans are not good at doing that.
    We are pretty good at taking over management. And we have 
got to learn that we have to back off. And we are going to 
accept something less than necessarily our standards, but it is 
going to be more than adequate.
    Mr. O'Rourke. Yes, and recognizing that we are in the Armed 
Services Committee room right now and appropriately talking 
about military strategy, I can't help think about the fact that 
this is the fifth successive administration that has used 
military force in Iraq specifically and in many other areas.
    That we have an Authorization for Use of Military Force 16 
years in that we have used in six countries including most 
recently Somalia. And that we have got to do a better job of 
defining our political goals and aims.
    And perhaps just an appeal to the chairman and the ranking 
member, there is a way to meet with the Foreign Affairs 
Committee, as well, on some of these issues to have a 
comprehensive whole-of-government conversation on this.
    So I yield back to the chairman.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you Mr. Chairman, and thank the 
witnesses for very compelling testimony and answers to the 
questions.
    Mr. Hoffman, I will start with you, but I want input from 
the entire panel. When the Syrian conflict eventually ends, you 
are going to have all of these fighters from Hezbollah, this 
evil terrorist organization, return to Lebanon.
    They will have increased skills, increased experience. If 
there is nobody left to fight in Syria, what happens to all 
those fighters in Lebanon? Mr. Hoffman.
    Mr. Hoffman. We will probably have the third Israel-Lebanon 
war, would be I think one immediate effect. But this goes back 
to an earlier question. I think one of the most appealing 
reasons to cooperate with Russia in Syria is if it succeeds in 
isolating and marginalizing Iran more and weakening Hezbollah's 
military status and forward military position in the country.
    But this is going to be an enormous problem. I would say 
the only sort of positive aspects of that, that Hezbollah 
fighters have been getting now, I think acquiring greater 
expertise in urban warfare on a level that they lacked in the 
past, is that it is controversial amongst the Lebanese Shia.
    And that increasingly it is not the elite Hezbollah forces 
that are going, but more the equivalent of conscripts, in 
essence, young, poor Shia that have no other economical 
alternative and that that is eroding some Hezbollah support. 
But of course Hezbollah also controls the government in Lebanon 
right now.
    Dr. Abraham. Right. Mr. Jenkins, your thoughts?
    Mr. Jenkins. It is Hezbollah is a problem. It is 
particularly a problem, and I agree with Professor Hoffman, for 
the Israelis, as well as for us. But it is part of a larger 
problem in Syria and that is there are lots of armed groups now 
in Syria. And they are not under the control of the central 
government, any central government.
    That is, there has been power shift from a central military 
force to a group of militias, some militias controlled by Iran, 
some of them controlled by the Syrian government, some of them 
autonomous, in addition to the various rebel formations and 
Sunni formations and other formations.
    As a consequence, central government authority in any 
future Syria is going to be significantly diminished, and I 
think we are looking at, realistically, a de facto partition of 
the country in which chunks of the country are going to be 
controlled by autonomous military formations, not under the 
control of anybody.
    I don't think we are going to get--I know that we have to 
cooperate with the Russians. I don't think we are going to get 
a national solution. I think we are in effect going to get a 
series of--a partitioned country and at most some local 
accommodations that hopefully lower the level of violence.
    But there is no government that can come in, in Damascus 
now that is going to be able to restore authority throughout 
the national territory of Syria.
    Dr. Abraham. Ambassador.
    Ambassador Sheehan. Congressman, this is a problem of 
enormous depth in the region and as Mr. Jenkins said, there are 
different types of groups. The ones that worry me the most 
though, are the ones that have been inspired, funded, trained, 
and even in some cases, led by the Iranian IRGC [Islamic 
Revolutionary Guard Corps] and the Quds force.
    The Iranians have systematically, deliberately have 
expanded the militia-ization of the Levant and spreading back 
into Lebanon as well, that threatens the security of the entire 
region. We are going to have big, big problems and increasing 
problems there over the years ahead unless the Iranians are 
directly confronted on this issue.
    And there is where there may be potential to work with the 
Russians on this. I don't know. It is something I think that 
can be explored. I don't have great confidence in it. But it is 
something that we might want to explore if they are willing to 
put some pressure on the Iranians to calm down some of these 
activities, which are inflaming the entire region.
    Dr. Abraham. Thank you, General.
    Thank you Mr. Chairman. I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair, and thank you to all 
our witnesses for coming today. Professor Hoffman, you talk 
about the possibility of terrorist organizations developing and 
using weapons of mass destruction, WMDs.
    The proliferation of WMDs or materials to develop these 
weapons would be catastrophic and certainly a game changer. I 
believe funding of nonproliferation programs are integral to 
any counterterrorism strategy.
    To all our witnesses, how can we further proactively deter 
the spread of CBRNs, chemical, biological, radiological, and 
nuclear weapons, to terrorist organizations?
    Dr. Hoffman, if we could start with you.
    Mr. Hoffman. Well, first and foremost, one of the most 
straightforward means is to ensure that all those countries 
that have these materials undertake the proper safeguards.
    I am not entirely convinced that that is necessarily the 
case now with certain countries throughout the world in terms 
of safepiling the stockpiles, particularly of strategic nuclear 
material.
    Secondly, I think it is paying close attention to the 
remedial measures that are going to be necessary should any of 
these attacks occur in an urban center. I don't think the 
likelihood is very high in the United States itself.
    I would put it higher in Europe, just because there have 
been instances, for instance in Turkey where Al Qaeda in 
particular has been operating laboratories to manufacture and 
produce sarin nerve gas for example. So while I don't think 
this is necessarily an imminent threat, it is clearly on the 
minds of our adversaries.
    And I think dealing with the psychological consequences of 
such an attack, I mean, Ambassador Sheehan made the point with 
the Aum Shinrikyo attack in Tokyo, had they set fire on the 
subway, for example, and caused smoke inhalation or had they 
used handguns, they would have killed far more people than the 
sarin did.
    But nonetheless, the psychological impact of that use of an 
unconventional weapon back in the mid-1990s was extremely 
profound. And I would argue that those repercussions are going 
to be even greater now.
    And therefore, not just preventing it from happening, but 
being able to very quickly remediate any sort of incident will 
go a long way to restoring public confidence and depriving the 
terrorists of the fear and alarm that they hope to generate 
from using an unconventional weapon that even might have a very 
modest casualty rate.
    Mr. Carbajal. Thank you.
    Mr. Jenkins.
    Mr. Jenkins. We are doing a number of things for obvious 
reasons that addresses nuclear. It is more difficult to address 
smaller scale chemical, biological, or radiological attacks and 
for precisely the reasons that Professor Hoffman has pointed 
out.
    And that is that it is difficult for them to scale up an 
attack to really get into casualty levels that we are looking 
at, at the level of, say, 9/11 or an order of magnitude greater 
than that.
    But the nature of these weapons is such that even a small-
scale attack is going to set off the alarms and reactions that 
are really going to cause us the difficulty.
    Can we stop them from producing very tiny quantities of 
anthrax or low-quality ricin or some of these things? Very hard 
to do. Certainly we should try to do it. But there it is going 
to be a matter of really how fast can we respond effectively to 
these events that occur.
    With biological, fortunately, there is a way we can spend 
money and get a dual effect on this and that is, we have to 
look to our public health systems and our response systems, and 
say whether this is a man-made event or not, what is our 
capacity for rapid response to save lives?
    And above all to show competence in these events, rather 
than allow a small-scale event to become the one that propels 
the public into a panic.
    Mr. Carbajal. Thank you.
    Ambassador Sheehan.
    Ambassador Sheehan. Congressman, I think I divide the 
problem in two areas. One is weaponized WMD, nuclear, 
radiological, biological, or chemical, or an improvised. And I 
think that there are two different approaches.
    For weaponized, which are generally done by a nation-state, 
you might want to look at the Nunn-Lugar process, where we have 
tried to safeguard former Soviet Union nuclear weapons. I think 
that was a very successful program, obviously a big and 
expensive one.
    Maybe on a smaller level we can use those types of programs 
to make sure that weaponized systems by any country that has 
any of these types of systems are controlled. My biggest fear, 
quite frankly, nuclear, is Pakistan. And we can get into that 
and spend hours wringing my hands about that fear.
    But on the improvised side, that is more difficult. There 
you are looking at I think the best way to defend against an 
improvised WMD is to crush those organizations so that they are 
unable to develop the type of sophistication to develop these 
type of weapons.
    If you allow them to sit in sanctuary and give them the 
time in order to develop these things, I think they will. But 
if you keep them on the run, if you keep the pressure on them, 
it becomes very, very difficult to do that. That is why for the 
15 years, they haven't been able to, because of the enormous 
pressure on them.
    So I think the greatest fear I have is if we ever take our 
foot off the neck of some of these organizations to allow them, 
to give them the space to recruit the types of people and 
develop those type of weapons, we will be in trouble. So my 
answer is keep the heat on them.
    Mr. Carbajal. Thank you very much. I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Professor Hoffman and Ambassador Sheehan, I 
would like to dig a little bit deeper on your comments 
regarding the Muslim Brotherhood. And Ambassador Sheehan, I 
take your point that the group is not a monolithic 
organization.
    There are, for example, two factions in Jordan, one closer 
to Hamas, that I am sure the king would like to see less of, 
the other that is less difficult to deal with. But you both 
made the argument that we need to find a way of undermining the 
ideology.
    And this is a group whose ideology celebrates violence. It 
celebrates martyrdom. It has as its highest aspiration the 
establishment of a global Islamic caliphate. The end of its 
credo says, ``Jihad is our way, death in the form of Allah is 
our highest aspiration.''
    So if indeed the violent act is downstream from the 
ideology, how do we get at groups that are espousing the 
ideology short of designation? In other words, is there a 
smarter, more effective way of countering it that you would 
recommend if you are recommending against designation?
    Mr. Hoffman. Again, I worry that this is, you know, 
precisely one of those moves that plays exactly into our 
enemies' desires, that by painting with a broad brush the 
Muslim--I don't disagree with anything that you have described 
about the ideology.
    But again, I think the fact that it isn't a monolithic 
entity means that the repercussions of designating it as a 
terrorist group are going to be difficult to enforce. And I 
think the gains on our side aren't going to be tangible, 
whereas for our opponents I think the gains will be 
significant. It will furnish them with greater propaganda.
    It will, I think, or I fear, have marginalized those 
members of the Muslim Brotherhoods that participate in 
parliamentary democracies that may have extreme views but don't 
share that same embrace of violence as a means to an end, and 
that we will succeed almost in creating the Muslim Brotherhood 
into more of a terrorist group than it is now.
    I mean, admittedly it is a group that is very much in the 
gray area, but we should be focusing on the individuals who are 
advocating violence and not driving everyone else into their 
arms.
    Ambassador Sheehan. I think that I have said this before in 
this testimony. I am very skeptical that American voices 
condemning the Muslim Brotherhood have much traction where it 
matters. And you wind up pissing off more people than turning 
away some from joining the violent groups. I just don't think 
it is a very productive enterprise.
    So in terms of designation, you have to define the group. 
And if you can define a group that calls itself the Muslim 
Brotherhood, and it is a defined organization that has 
conducted terrorist attacks and killed or harmed American 
citizens, then we have an obligation to designate it as FTO. 
But to broad-brush it, it just doesn't work, first of all.
    And second of all, I don't think it is very productive. I 
do believe that the best thing that we can do in terms of 
supporting counter-narratives to the Muslim Brotherhood is to 
support the local nations that have to deal with that. They 
will have the better voice. They will understand the dynamics 
in their particular country and how to face that.
    So for President Sisi, who may perhaps--or King Abdullah 
that have these real problems with the Muslim Brotherhood, they 
have to figure out a way to deal with the political realities 
of their countries and try to focus on identifying the violent 
folks that are adherent to that and deal with them 
individually.
    And they have the best sense of how to deal with that. Back 
here in the U.S., our pronouncements about that I don't think 
are very productive.
    Mr. Gallagher. And just a quick follow-up for Professor 
Hoffman, because I have a minute. So it seems like your concern 
would be that the designation would drive that sort of elements 
of the Brotherhood that are currently participating in the 
political process away from it.
    But wouldn't our experience in Egypt suggest that the 
Brotherhood when allowed to fully participate in the political 
process only uses it to expand power and act in authoritarian 
ways against our interests? I would just be interested in your 
thoughts.
    Mr. Hoffman. That is the problem is that the Muslim 
Brotherhood isn't a monolith and doesn't have a centralized 
command. So yes, you are absolutely right in Egypt. But in 
Jordan, I think you could make another argument and that is 
what concerns me.
    I think groups like Hamas, that are part of the Muslim 
Brotherhood and that are clearly terrorist, that is what you be 
much more specific, I believe than holistic.
    Mr. Gallagher. Thank you gentlemen. Mr. Chairman, I yield.
    The Chairman. Mr. Brown.
    Mr. Brown. Am I on? I apologize. My first question I have 
asked in a full committee hearing. So this is a readiness 
question and each of you seem to agree that there might not be 
an end to our fight against terrorism.
    But rather that the United States will continue to be 
involved in an ongoing effort, perhaps generational effort, to 
reduce the successful, strategic feats of our continuing 
terrorist threat.
    If this is the case, could each of you comment on our 
military readiness from your vantage point and your experience, 
our sustained ability to reduce these terrorist threats.
    And I am particularly interested in your thoughts about the 
strengths and weaknesses of our personnel capabilities, both 
the strength size and the skill sets of the men and women in 
uniform and also the level and engagement of U.S. and non-U.S. 
human assets, intelligence assets abroad.
    Mr. Jenkins. Let me comment quickly. First of all, I do 
think--we have mentioned various figures here, 20 to 40 years, 
two generations. It is going to be very, very long. And the end 
is not clear.
    And as military operations against terrorism become 
routinized then traditional concepts of victory begin to fade 
away. Americans traditionally have looked at warfare as a 
finite undertaking with a clear beginning and clear end.
    We are not going to get that. This goes on indefinitely, 
and upping the investment or resources doesn't necessarily 
shorten the time horizon. But it shortens our time horizon in 
terms of our ability to sustain it, politically and in terms of 
cost.
    As a consequence we have learned that if we try to do 
things with major investments, as we have in Afghanistan and 
Iraq, that this can have a major impact on our military 
readiness.
    I mean we have imposed huge burdens on our military 
personnel. We have deferred decisions about acquisitions, about 
maintenance, about training.
    And as a consequence I am not the one to be able to give 
the precise answer to this as to how many of our brigades are 
really up to strength and combat ready to go at the moment. But 
I suspect that we have paid a heavy, heavy price in terms of 
our overall readiness to deal with other contingencies.
    So we are going to have to conceptually change our model to 
say we have to figure out a way to manage this. And I am using 
the word manage to avoid the word win or victory. That is not 
defined well.
    But to manage this for the long term in a way that we can 
sustain it in terms of readiness and in terms of political will 
and not exhaust ourselves, which is precisely what our 
opponents are trying to make us do.
    Ambassador Sheehan. I agree completely with Mr. Jenkins. I 
will just add that since we have reduced from the big efforts 
in Iraq and Afghanistan, although we are increasing again, it 
going to take us years to recoup, to get those brigades combat 
ready again. But we will get there with the proper investments, 
and if we pace ourselves.
    The biggest concern is going to be in the special 
operations forces, about 70,000 of those folks out there, men 
and women in all of the services. They are going to be asked to 
do a lot of the heavy lifting in these fights. So we are going 
to have to--I don't think we can expand much beyond that.
    And I have had a lot conversations with Admiral McRaven 
about that, and other leaders within the special operations 
forces community. It takes a long time to build these folks, 10 
years to really get them ready. You can't just create them 
overnight.
    So I think that we have to be careful in husbanding those 
resources and carefully deciding where we are going to put them 
because we have to spread them out.
    And I don't think--we may be able to increase force 
structure a little bit, but I think in those areas it is very 
difficult. So it is a matter of setting priorities, and again, 
as Mr. Jenkins said, is designing a strategy that you can 
sustain for another 20 years.
    Mr. Hoffman. Can I squeeze in a comment? We have been 
talking about terrorists and terrorism most of this hearing. 
What concerns me in terms of our military is what we are seeing 
with our adversaries is they are going beyond terrorism. We 
face hybrid adversaries now, whether it is ISIS, Al Qaeda in 
the Arabian Peninsula, certainly Hezbollah.
    Where these groups have conventional capabilities they are 
able to seize territory. They are able to, even in Al Qaeda's 
case, something that they didn't want to do in the past, but 
they are able to now, provide some form of governance, however 
rudimentary.
    They are able to take on even the established militaries of 
our local partners. And this is a trend line that concerns me, 
is that in the future, we are not going to be talking strictly 
about counterterrorism or counterinsurgency or even about 
countering conventional warfare.
    We are going to see adversaries that are non-state 
entities, that get into this whole definitional question that 
Representative Gallagher raised about the Muslim Brotherhood 
where they become very difficult to define, even in this 
military context.
    And we are going to have to have a military, I would argue, 
but I have none of the credentials of my two colleagues, but 
that goes beyond the sort of capabilities of the smaller 
special forces as they exist today, and that have to involve a 
different mix of forces perhaps than we have seen in the past 
in a different model, and sort of the innovation and the 
different kind of thinking I talked about in my written 
testimony.
    Mr. Brown. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Banks.
    Mr. Banks. Thank you Mr. Chairman. And gentlemen, thank you 
for sharing your vast experience with the committee today. As a 
veteran of the war in Afghanistan, I can't help but to start 
there and consider our mission in Afghanistan first when 
discussing the global war on terror.
    Mr. Jenkins, in your testimony, you described the 
military's success that has come from working with locals, 
including irregular forces. My experience in Afghanistan gives 
me grim hope that we will find a long-term success in our 
Afghan partners, given the significant headwinds that prevail 
there.
    Whether their corruption, antiquated systems, or misplaced 
loyalty, it is clear that our work in Afghanistan from an 
advise and assist mission perspective is far from over.
    Ambassador, you described in your testimony the war raging 
between the forces of modernity and the radical Taliban in the 
mountainous regions in Afghanistan and Pakistan.
    And since all three of you described the devastating terror 
attacks of 9/11, I would like to explore with you how to 
prevent the Af-Pak region from returning to a region where 
terrorists can move, organize, and plan devastating attacks on 
the West with relative ease.
    So Ambassador, in your testimony, you expressed the need to 
expand our train, advise, and assist programs, while also 
expressing caution about too many advisors looking like an 
occupying force. This sounds a lot to me like advocating for 
the status quo.
    Yet last week General Nicholson testified in front of the 
Senate Armed Services Committee that we may need a few thousand 
more troops in the train, advise, and assist category. Do you 
agree with the general's assessment in that role?
    Ambassador Sheehan. Thank you, sir. I don't know about the 
exact numbers. I am skeptical about bigger numbers. I think the 
real question is you have to go back and define what the task 
is.
    If he considers his task that he has to pacify vast regions 
of Afghanistan, then certainly he is going to need more 
soldiers to do that. The question is, is that really what the 
task is?
    Is it necessary to pacify all those regions? Is it 
necessary to spend the resources, have the body bags come back 
up to Andrews, fighting over territory that might not be 
existential to our national security?
    What we really need to do in Afghanistan is make sure that 
we have enough capability there to find and kill those 
terrorists that threaten our homeland. To do that is going to 
require a long-term commitment in Afghanistan to stabilize that 
country.
    But in terms of pacifying the whole country, I am not sure 
that is worth the lives of more of our men and women that are 
dying and being maimed over there. And I don't want to get 
emotional about this, but this is what we are really talking 
about.
    So we have to be very focused on what we are doing. And so 
actually, by the way, this is a separate subject. I am very 
skeptical about having field commanders come back to Washington 
and make pronouncements about troop levels. I have never met a 
field commander that didn't want more troops.
    You don't have, Patton didn't come back to Washington and 
advocating he wanted more troops, gasoline, and bullets to move 
forward. Of course he did. But so did MacArthur in Asia. Those 
decisions are not made by the field commanders. They are made 
by people who have the broader perspective.
    Anything that he wants in Afghanistan in a zero-sum world 
which we have in the Pentagon, takes forces and funding away 
from other areas that directly threaten us in terms of 
terrorism and these other emerging threats that you have been 
dealing with in this and the other subcommittees. So there are 
costs and benefits that Mr. Jenkins articulated beautifully.
    So I don't know whether General Nicholson should or should 
not get more forces. I think that we have to ask first, what 
are you trying to achieve here and try to keep our objectives 
fairly narrow so that we don't exhaust ourselves. So that is my 
answer.
    Mr. Banks. So with that, aside from the train, advise, and 
assist mission, how should the international community combat 
issues in the Af-Pak FATA region with a limited troop presence 
on the ground?
    Ambassador Sheehan. Well, what is ironic is that the FATA 
is the home of Al Qaeda central, which traditionally is being 
our biggest strategic threat. They are the ones that blew up 
our embassies in Africa, at least an African arm of that; blew 
up the Cole in Yemen, an arm of Al Qaeda central; and are the 
people that are responsible for 9/11.
    They reside in Pakistan. Some of them are floating back 
into Afghanistan, but it is difficult for them to operate in 
Afghanistan because we own the terrain around Afghanistan. Not 
necessarily every mountainside, but we can reach out and touch 
them in Afghanistan.
    In Pakistan, in Western Pakistan, it is interesting. We 
haven't had soldiers there in over 10 years, yet we continue to 
diminish and degrade the capability of Al Qaeda central to 
reach us strategically.
    I worry about this all the time, that without that presence 
there--and the Pakistani army isn't in there very often either. 
Once in a while they come rumbling through, but that is not 
really that effective.
    They are there in those mountainous regions and we--what is 
interesting is we need Afghanistan almost as much as a base to 
attack the FATA than we need Afghanistan itself.
    Afghanistan has no strategic importance to the United 
States. However, the importance is that Al Qaeda is there and 
blew up the World Trade Center and the Pentagon. We can't allow 
that to come back again.
    And they are in Western Pakistan, and for a variety of 
political reasons we can't put troops on the ground there so we 
have had to come up with a solution to diminish AQ in Pakistan 
without one soldier on the ground.
    So sometimes you have to come up with solutions with no 
troops on the ground. Other times if you have the ability to 
send 100,000 there it doesn't mean you should. So it is a 
matter of finding the right solution commensurate with the 
threat.
    Mr. Banks. Thank you. Thank you, Mr. Chairman.
    The Chairman. Ms. Murphy.
    Mrs. Murphy. Gentlemen, thank you for your testimony. I 
represent a district in central Florida that was significantly 
impacted by terrorism in this last June, a gunman who swore 
allegiance to ISIL walked into the Pulse Nightclub and killed 
and wounded over 100 people.
    This is the deadliest terrorist attack in the United States 
since September 11. It is also the deadliest instance of 
violence against the LGBTQ community in our Nation's history.
    Unfortunately, this event serves as a tragic reminder that 
violence motivated by ideological extremism is an enduring 
threat to our security at home and abroad.
    We have seen that ISIL and other groups have been able to 
successfully recruit and inspire adherence through the 
internet, and recently I read an Associated Press investigation 
into CENTCOM's [U.S. Central Command's] program to counter 
ISIL's online propaganda.
    The investigation found that specialists hired to work on 
counter-propaganda efforts had little prior experience and did 
not have sufficient Arabic language skills or an adequate 
understanding of Islam to be effective against ISIL's online 
recruitment efforts.
    What is your assessment of our cultural and linguistic 
capabilities? And how do we ensure that the resources that we 
invest in efforts to counter online propaganda are effective?
    Mr. Jenkins. You know, first of all, it is striking to me 
that in a nation of 320 million people with as many immigrants 
that we have that we have problems in recruiting people with 
appropriate language skills to run programs like this.
    And I cannot--I find it difficult to believe is that we 
don't have those resources, so I think there may be 
bureaucratic things that prevent us from utilizing these 
people.
    In fact, if you take something, and I will trespass in 
Ambassador Sheehan's territory, if you take something like the 
NYPD, the NYPD probably have language capabilities in Arabic 
that rival those of the Federal Government.
    That reflected the diverse population of New York, but it 
also reflected a determination to utilize those resources in a 
very, very effective way. That is one city.
    We have a lot of cities with a lot of communities where 
they speak a lot of different languages and so this is 
something. It is not a resource problem. It is how we are 
putting this together.
    Now, I don't know that everyone that is in one of these 
programs has to necessarily be cleared to a top secret 
clearance and go through all of these things which we have a 
tendency to do. But I would look for myself, and I don't know 
the details of this program--I read the same article--I would 
look for what are the bureaucratic obstacles, the 
organizational obstacles to getting qualified people into this 
as opposed to, gee, we can't find enough Arabic speakers in the 
United States.
    Ambassador Sheehan. Mr. Jenkins is right, Congresswoman. 
The NYPD program had no security classifications for most of 
its Arabic speakers, Urdu speakers, Farsi speakers, et cetera. 
They didn't need it.
    What they did do is they are creative enough to put those 
people operationally in a box so that they did not have access 
to classified information so that they were never a threat to 
the security of NYPD or the city or any of the FBI's programs.
    So we were able to use the linguists that we had with NYPD 
to do all kinds of things, not only on the internet, where we 
were able to establish chat rooms far faster than the Federal 
Government was able to do after 9/11.
    Because quite frankly, the FBI and the CIA [Central 
Intelligence Agency] have a very long and in-depth process of 
making people have top secret highly classified classification 
qualifications in order for them to operate in some of these 
programs.
    What I have long believed that you could put those people, 
and to include undercovers and other folks, you box them off 
from your secure programs, and they are able to operate. And I 
think that we should--other jurisdictions can look to the NYPD 
model and duplicate those, but on a much smaller scale.
    Of course they have much smaller cities as well, but I 
think there are ways that they can get into the communities, 
get into the chat rooms, get into the internet and help find 
those problems.
    One other issue on Tampa, San Bernardino, Boston, and 
others. One of the things that has happened in those cases is 
the FBI when it opens up a case on an individual it will follow 
them for a long time, but after that person isn't really active 
they are going to drop the case.
    And normally, the local jurisdiction is not notified about 
that unless they have an office within the JTTF. I would 
advocate, like NYPD does, if a case is dropped like the two 
brothers in Boston, the local police should have picked that 
up.
    And they won't conduct that operation exactly like the FBI 
will. They may go knock on the door of the house of the 
neighbor, but at least they will know that people are looking 
at them. And that might deter them from acting.
    Those are things that could be done tomorrow in other 
jurisdictions that I believe can be a great deterrent to some 
of these homegrown folks. So a little bit of creativity with 
the local law enforcement.
    And by the way, I have been down to Broward County talking 
to the JTF down there and some of the police forces. More can 
be done.
    Mrs. Murphy. Thank you.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman, and I want to thank the 
chairman for really the entire hearing schedule we have had in 
this committee. All of the material seems to build on what we 
have learned in our prior discussions, and it seems to be 
drawing into very sharp relief the need to enhance our 
readiness to deal with these very complex challenges.
    Ambassador, you testified earlier that one of the things we 
could do to be most effective in counterterrorism is to support 
those who have more inclusive values at the local level, 
perhaps even at the tribal and community level in some of these 
places of concern.
    Yet in Mr. Jenkins' testimony we seem to have the 
identification of at least five functional failed states in 
Syria, Yemen, Somalia, Iraq, and Libya, and so in these failed 
states, what are the effective tools in the toolbox that we can 
use to support, generate, facilitate some of the civic 
institutions that can be the most effective counterterrorism 
tools?
    Ambassador Sheehan. Thank you, sir. I think even in failed 
states we can work with local militia forces to fight the 
terrorist militia forces. And we are trying to do that in 
varying degrees in varying levels in places like Somalia, 
Yemen, and Libya.
    I think we need to--we can step up that activity because 
really it is a local fight. And I think if I can share this 
with you in Yemen, I think in Yemen we put too many resources 
in their traditional military structures, some of which had 
very dubious allegiances to the government that we supported. 
And that came back to bite us.
    If you really look at who was actually fighting AQAP in the 
mountainsides of central Yemen, it was some of these tribal 
groups that were actually first organized by the Soviet Union 
back in the 1970s in the civil war there.
    But basically what they were were tribal organizations like 
in Afghanistan like our ALP program, the [Afghan] local police, 
where it goes back to the Vietnam models and the 1960s models 
about organizing local militia to defend their villages.
    And sometimes in failed states that is where you have to 
start to work, at the local level working with people that are 
willing to fight for their side and work with them as opposed 
to perhaps trying to stop from the top where a government is 
either broken or falling apart.
    Mr. Gaetz. And Ambassador, there is increasing concern in 
Congress that our work with those local militias can lead to 
perhaps a lack of fidelity with them to our values and to our 
objectives in the region. What are the things that can be done 
to ensure that if we engage some of these local militia forces 
we, you know, our warfighters don't end up fighting against our 
own material?
    Ambassador Sheehan. Yes. It is a very difficult question. 
The first time I ever trained and armed a local militia, a 
month later the guerillas came and shot a few of them and took 
away 40 weapons. So it is a risky proposition because----
    Mr. Gaetz. Is it only case-by-case that we can determine 
where there is this loyalty or are there some best practices we 
have used in other parts of the world, South America----
    Ambassador Sheehan. There are----
    Mr. Gaetz [continuing]. You know, other places that we 
could use in the Middle East?
    Ambassador Sheehan. There are plenty of best practices 
dating back decades and--but ultimately what you have to do is 
decentralize your decision making and allow the operators on 
the ground to make decisions about who actually they are going 
to spend resources on to train and assist. What are the units?
    What are the--whether it be militia or certain of the 
governments, which are the ones that really actually are 
willing to fight and put your resources there. There is no, I 
don't think, a cookie-cutter solution. I think it has to be 
determined at the local level.
    Mr. Gaetz. Are you confident that within our current force 
structure and chain of command that there is sufficient 
devolution on those questions?
    Ambassador Sheehan. I think that we have some really smart 
folks out there working these issues. I do believe, and I 
alluded to this in my testimony, that we are fairly thin in 
some countries that are very problematic. Although we are 
increasing fairly dramatically in Africa the size of our 
forces, the 10th Special Forces Group over there, I think that 
we need to establish a more robust presence in some of these 
smaller countries. And I am talking again in dozens or 50, 
hundreds of people, not thousands to--and they have to stay 
there for a while, at least on repeat assignments.
    And we were talking about this in the anteroom about 
creating cadres that can develop real expertise in the region 
so that they can know the language, know the people, know what 
units to support.
    I am not sure our Army has the proper management systems in 
place to develop, train, deploy, and nurture those types of 
folks and their careers in those faraway places that were 
really at the tip of the spear.
    Mr. Gaetz. Thank you, Mr. Chairman.
    The Chairman. Mr., is it Suozzi----
    Mr. Suozzi. Suozzi.
    The Chairman [continuing]. Suozzi. All right. Thank you. It 
will take me a while to get it right. Welcome the gentleman to 
the committee and he is recognized for 5 minutes.
    Mr. Suozzi. Thank you, Mr. Chairman, for keeping the 
hearing open. I think we are some of the last ones here, so 
thank you for sticking around for the whole time. I appreciate 
it very much. And thank you to each of the speakers for a 
fantastic education that you gave us all today.
    I am going to follow up on something that Mr. Gaetz was 
starting to probe there, and Ambassador, you were talking 
about, or maybe it was Mr. Jenkins, you were talking about 
failed states and ungoverned areas, and, you know, not so much 
about the ideology, just this concept that Tom Friedman has 
used in his book recently of control versus chaos.
    The idea of, you know, places that are stable in the world 
versus places that are becoming chaotic because of climate 
change, because of civil war, because of corruption, because of 
incompetence. It is really a battle in the world of control 
versus chaos.
    And I want you to suggest to us where we need to prioritize 
which places that are failed or are ungoverned that we should 
be focusing on trying to get them more stabilized, and where 
should we be concerned are the next places that could become 
failed states or as you said before, you know, armies that have 
gone out of control because there was an army in place and now.
    So what places should we prioritize that we need to--you 
know, you talked about these small states in Sub-Saharan 
Africa. Where should we be focusing on trying to stabilize 
existing places that are unstable and where are the places that 
we have to worry are going to fall next?
    And I will ask you first, Ambassador.
    Ambassador Sheehan. Well, thank you. I ticked them off in 
my testimony there, and I think that in the failed states, the 
four that I mentioned in Syria, Somalia, Yemen, and Libya, we 
have to put a high priority on activity in those four 
countries.
    Mr. Suozzi. Which has the best opportunity of getting 
stabilized of those four?
    Ambassador Sheehan. Oh, I don't think any of them have very 
good prospects at all for years. I was in Somalia in 1994, so 
how many years ago was that, and it was a mess then and it 
still is now.
    Yemen is a disaster, as is Libya. These are going to be 
broken states for a long time. And even when you do get 
governments that are stable, the countryside is going to be out 
of control for decades.
    So I think in those four countries we have to put a major 
effort. In Yemen you have AQAP, which has demonstrated in the 
past its ability. In Libya I am very concerned about it. 
Professor Hoffman talked about Somalia and its challenges.
    So, and Syria is obviously----
    Mr. Suozzi. So there is no argument you would prioritize 
those four?
    Ambassador Sheehan. Those four.
    Mr. Suozzi. Okay. So like, for example, I was speaking to 
some Europeans the other day. They are most concerned about 
Libya because that is the----
    Ambassador Sheehan. Yes. It is close.
    Mr. Suozzi. It's the closest one. So should we prioritize 
that first before going to others or?
    Ambassador Sheehan. Look, right now our priority is in 
Afghanistan if you look at the force levels. And in Iraq of 
course because we are trying to roll ISIS out of Mosul and then 
eventually kick them out of Raqqah. And then we are going to 
have to have pretty substantial forces in both of those places.
    However, I would say some of these others are just as 
problematic.
    Mr. Suozzi. Any place you are worried, the next place that 
could fall that is not on the list now but the next place that 
could go----
    Ambassador Sheehan. Oh, I would----
    Mr. Suozzi [continuing]. If we don't pay attention?
    Mr. Sheehan [continuing]. I would worry about the Central 
African areas like parts of Nigeria. The Nigerian state is not 
going to fall, but areas of the country that could come out of 
control and that would be very problematic.
    But I think North Africa is probably because of its 
proximity to Europe, and once you are in Europe it is easy to 
get to the U.S.----
    Mr. Suozzi. Right.
    Mr. Sheehan [continuing]. Is really somewhere I would focus 
on.
    Mr. Suozzi. I only have a minute 4 seconds left.
    Ambassador Sheehan. Or Jordan, by the way, I would throw in 
there.
    Mr. Suozzi. Mr. Jenkins.
    Mr. Jenkins. You know, the patterns have been pretty stable 
in terms of the real hardcore areas. And even before we get to 
anticipating which ones we should be anticipating, we have a 
long enough list of ones that are on the----
    Mr. Suozzi. To focus on now, right.
    Mr. Jenkins [continuing]. Critical list already----
    Mr. Suozzi. Right, yes.
    Mr. Jenkins [continuing]. That we don't necessarily have 
the resources to be ambitious, although it would be nice to 
anticipate all of these things. So I would certainly share with 
the focus being on these.
    I think the real issue is that when we pay attention to one 
of these, we have to be realistic about what we can do with our 
resources. And therefore are going to have to rely more on Arab 
allies that can field forces and on dealing with local militias 
and not necessarily taking the course that the prerequisite has 
to be we have to restore a functioning central government, 
which gets us into the nation building business----
    Mr. Suozzi. Right.
    Mr. Jenkins [continuing]. Before we take these measures. So 
we may end up working with local irregular forces before there 
is anything called a government or looks like a government.
    And we may end up leaning on some of our Arab state allies 
who have expressed a willingness to do some of these things and 
saying yes, you can put some people on the ground there more 
easily than we can. Because we don't have enough expertise and 
forces and also we are Americans here to deal with all of 
these.
    So it doesn't mean not engagement, but it means a very 
effective management. It does mean getting into the very 
ambitious task, as I think we have in Afghanistan, of, well, 
first we are going to have a big Afghan government, then we are 
going to have an Afghan national army, and we are saying, well, 
we--you know, good luck--that is two, three generations away.
    Mr. Suozzi. Right.
    Mr. Hoffman. Mr. Chairman, could I add very quickly? I will 
answer your questions in reverse order. For me, my biggest 
concern is Yemen because I think Yemen is going to split into 
two and we are going to have a Houthi Shia-based country 
influenced by Iran with now a significant Iranian foothold on 
the western part of the bottom of the Arabian Peninsula.
    And then we are going to have a Salafi-jihadi state, or 
statelet, on the eastern side, and that is going to, I think, 
have profound geopolitical and strategic repercussions up the 
Arabian Peninsula. And Saudi Arabia and the Gulf States must be 
very concerned about that.
    Very briefly, I think the bigger question is that the 
simplest answer is, you know, where are our interests most 
important and where are the best local allies to work with? And 
when those two things converge, I think that gives us an 
indication where the greatest benefit of our attention and 
efforts might be.
    But in one sentence, I think the biggest problem is that in 
some of these regions the World War II borders are being 
reshaped, whether we or anybody else likes it. And going in and 
sort of buttressing borders that have outlived their relevance 
is going to be a fool's errand.
    So we have to think, in this upheaval that has become very 
localized, where we can't put the toothpaste back in the tube 
or we can't turn back the clock, where again between the 
confluence of our interests and local allies is that 
combination best served?
    So just for example, I am not advocating this, but with the 
Kurds in Erbil and Sulaymaniyah, I mean, that is where you have 
something of this convergence. So it may be thinking less in 
stereotypical nation-state terms and more in the new 
constellations of power, local power that are going to emerge.
    Mr. Suozzi. Thank you very much, gentlemen.
    The Chairman. Thank you.
    Last but certainly not least on this topic, the gentleman 
from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our panel for your testimony today. It has been an interesting 
discussion.
    I know that we have had several questions on counter-
messaging this morning, and I know that some of the witnesses 
have stated that we are doing okay on the narrative, for 
example, how we are dealing with refugees, but it is not going 
to convince people to change their ideology.
    So I believe it was Mr. Hoffman that indicated that we 
should do more to disable cyber capabilities. So on that topic 
I would like to explore that a little more and what can we do? 
What more can we do on the cyber front?
    Mr. Hoffman. It may be akin to our leadership attrition 
strategy that we use now where it doesn't provide necessarily 
an ultimate answer or deliver the crushing blow that I talk 
about, but it keeps our adversaries sufficiently off balance 
and disrupts their message to an extent that it has just much 
greater difficulty reaching their intended audiences.
    I mean, this is an ongoing problem because of course as 
technology improves, what we have seen is that terrorists are 
able often to seize on that technology faster than governments 
can adjust to it, so that is one of the challenges.
    But, I mean, in my testimony I described 40,000 fighters 
from more than 100 different countries. What common message 
could we possibly direct that is going to push back on whatever 
individualistic or idiosyncratic reason they have been 
recruited? I mean, that is why I think that it is important to 
do these things, but we can't see it as an end in itself.
    And that relying on what we are really good at--we are not 
good at counter-messaging. We were during the Cold War; we had 
the United States Information Service and Information Agency to 
do it, but that is in the past.
    What we are good at now is utilizing technology. And 
harnessing technological disruption I think would be a much--in 
terms of cost effective and beneficial, would be an improvement 
over what we are doing now.
    Mr. Langevin. Anybody else want to offer anything else? No? 
Okay. So one of you in relation to a question that Ms. Stefanik 
had with respect to--the answer was to working more closely 
with the countries in the region in the Middle East. Could you 
expand on that? In exactly what way are you suggesting we work 
more closely?
    Mr. Jenkins, was that you I think?
    Mr. Jenkins. Yes. I mean first of all, we can do more with 
regard to just military operations and this is not a matter of 
attempting to create, you know, the anti-jihadist equivalent of 
NATO [North Atlantic Treaty Organization] or something like 
that. We are not at that formal level.
    But we certainly can try to more effectively enlist and 
assist these local states that do have resources, and I am 
talking about both military resources as well as political and 
propaganda resources to make that work.
    Now, again, we have to be realistic. They are not 
necessarily going to get great report cards on every aspect of 
something we would look for in a NATO ally.
    But we are going to have to be able to do that simply 
because we are the inappropriate instrument. We are the 
instrument of last resort in these things. We cannot be the 
lead instrument in every one of these.
    Second, in terms of our expectations of these, in some 
cases--they don't have to be good enough to match the American 
Armed Forces. They have to be good enough to deal with the Al 
Qaeda or to deal with whatever the local branches of ISIL or 
other jihadist groups.
    In some cases we may be recruiting locally for militias for 
the sole purpose of out-recruiting the other side. In other 
words, not even thinking about them as a fighting force.
    Where simply we have unemployed young men and if we don't 
do something they will end up fighting for the other side 
because they will pay them. And in that sense it is a lot 
cheaper to say, okay, they will be in our militia, and we can 
have them do something useful.
    But at the very least it is far more costly and dangerous 
to take them out when they join ISIL. And ISIL is an example. 
Not every fighter, not every Syrian in the ranks of ISIL is a 
dedicated hardcore jihadist.
    There are a lot of them that have joined this because it 
was there were no other options. So for survival, for economic 
survival, they did this. So we can look for opportunities to do 
that.
    In other words, we are moving away from--I think if there 
is one common message we are sending here is, one, it is a long 
time. We can't shorten that.
    Two, we have to be careful about the kind of things we do 
because they can be costly and counterproductive.
    Three, this is not a war in a sense it is not like we are 
going to land on the beaches of Normandy and liberate France 
and cross the Rhine and head for Berlin.
    This is going to be much more in the realm of managing. It 
is closer to dealing with a law enforcement problem in a 
certain sense with military force than it is waging a war, 
although military force is going to be used.
    And therefore we are going to be lowering expectations, in 
some cases going for the long run, not doing counterproductive 
things, managing costs, making careful judgments. That is 
conceptually so different from the traditional way we have 
looked at warfare and military operations.
    I don't want to use the wrong term, but that is paradigm-
changing. That is a conceptual change. And our military 
institutions, as splendid as they are, that is a difficult 
change for them to do. And maybe they are not even the right 
instrument.
    Maybe we create a number of ad hoc things that realize, 
look, this is not what you guys do best. And we have to figure 
out other ways of getting this done. And we are going to use 
some military assets, but it is going to be a very different 
way of conducting operations.
    Mr. Langevin. Thank you. Thank you.
    I know my time has expired. You know, I would be interested 
in knowing if you could respond for the record, and in your 
assessment if it is a way that you can quantify it, the degree 
to which the fighters involved in this are doing it because of 
ideology and which are doing it because there were no other 
options? And which is the bigger, too; and I had some other 
questions that I would like to submit for the record.
    But thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    I think that was very interesting, lots of interesting 
conversations. The last one was particularly interesting to me. 
We face a similar kind of situation when we look at the hybrid 
threat that Russia poses. It is not strictly tanks coming 
across the plains of northern Europe. It is much subtle.
    Do we have the right military or other instruments of 
national power to deal with that, not just the Russians, the 
Chinese, the Iranians, as you talked about Hezbollah a little 
while ago, and terrorism has some elements of that where just 
our traditional notions of military power may not be the right 
way to deal with it.
    We will have a lot more conversation about that, but a lot 
of that is the job of Congress to make the reforms sometimes 
that the military has a hard time doing itself. And--but to do 
that in a prudent way.
    That is why we are particularly grateful to have you-alls' 
guidance in thinking about these issues and we will continue to 
rely on you in the future.
    Thank you all again for being here. The hearing stands 
adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           February 14, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2017

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 14, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Lessons learned from Iraq, Afghanistan, and other 
engagements around the world have demonstrated the importance of 
minimizing civilian casualties to winning the ``hearts and minds'' of 
locals and ultimately decreasing animosity towards the U.S. Civilian 
casualties aid in propaganda and recruitment efforts, as demonstrated 
by Al Qaeda's social media use of the inadvertent death of an 8-year-
old girl in the recent raid in Yemen. I believe precise and quality 
policies, procedures, and guidelines are essential to minimizing 
civilian causalities--both inside and outside areas of active 
hostilities. They are also critical to our broader strategy and must 
remain in place under the current administration. In your opinion:
    How does the loss of civilian life in operations undermine our 
counterterrorism efforts? How does it aid propaganda and recruitment 
efforts?
    How do we strike a balance of effective kinetic and non-kinetic 
activities against terrorists that accounts for the deleterious effects 
of civilian casualties?
    Mr. Hoffman. Minimizing civilian casualties must be an absolute 
critical priority in the fight against terrorism: not because of the 
adverse propaganda it generates, but because it is morally right. 
Success in striking a balance between effective kinetic and non-kinetic 
activities will be predicated upon the best possible intelligence being 
provided to the warfighter, clearly articulated rules of engagement, 
and active and ongoing efforts in planning and operations to prevent 
harm coming to civilians to the greatest extent possible.
    Mr. Langevin. Lessons learned from Iraq, Afghanistan, and other 
engagements around the world have demonstrated the importance of 
minimizing civilian casualties to winning the ``hearts and minds'' of 
locals and ultimately decreasing animosity towards the U.S. Civilian 
casualties aid in propaganda and recruitment efforts, as demonstrated 
by Al Qaeda's social media use of the inadvertent death of an 8-year-
old girl in the recent raid in Yemen. I believe precise and quality 
policies, procedures, and guidelines are essential to minimizing 
civilian causalities--both inside and outside areas of active 
hostilities. They are also critical to our broader strategy and must 
remain in place under the current administration. In your opinion:
    How does the loss of civilian life in operations undermine our 
counterterrorism efforts? How does it aid propaganda and recruitment 
efforts?
    How do we strike a balance of effective kinetic and non-kinetic 
activities against terrorists that accounts for the deleterious effects 
of civilian casualties?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Mr. Langevin. Lessons learned from Iraq, Afghanistan, and other 
engagements around the world have demonstrated the importance of 
minimizing civilian casualties to winning the ``hearts and minds'' of 
locals and ultimately decreasing animosity towards the U.S. Civilian 
casualties aid in propaganda and recruitment efforts, as demonstrated 
by Al Qaeda's social media use of the inadvertent death of an 8-year-
old girl in the recent raid in Yemen. I believe precise and quality 
policies, procedures, and guidelines are essential to minimizing 
civilian causalities--both inside and outside areas of active 
hostilities. They are also critical to our broader strategy and must 
remain in place under the current administration. In your opinion:
    How does the loss of civilian life in operations undermine our 
counterterrorism efforts? How does it aid propaganda and recruitment 
efforts?
    How do we strike a balance of effective kinetic and non-kinetic 
activities against terrorists that accounts for the deleterious effects 
of civilian casualties?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Do you believe we need a 21st century NSC-68 for our 
fight against radical Islam?
    Mr. Hoffman. Yes, absolutely. As I stated in my written testimony, 
the war on terrorism has now lasted longer than our involvement in both 
world wars and has exceeded even our melancholy intervention in 
Indochina. By prolonging this struggle, our enemies have enmeshed us in 
a war of attrition: the age-old strategy of terrorists and guerrillas 
everywhere that seeks to undermine confidence in our democratically 
elected leadership, create deep fissures in our polity, polarize 
political opinion and push the liberal democratic state towards 
increasingly illiberal security measures. In order to break this 
stasis, a new strategy and new approach is needed that harnesses all of 
our instruments of national power in a manner that is coherent, 
cohesive, systematic and sustained.
    Mr. Franks. What happens in the coming months and years as we 
diminish the territorial holdings of ISIS in the Middle East? What will 
happen as we squeeze ISIS and take away their territory? Will there be 
an increase in small-scale terror attacks in Europe and the U.S.? How 
do we combat this?
    Mr. Hoffman. This was explained in my written testimony. In 
summary, ISIS will revert to being a terrorist organization. It will 
opportunistically seek to inspire, motivate, and animate individuals 
(``lone wolves'') in the U.S. and Europe to carry out attacks on their 
own; it will also attempt to activate in-place operatives, mainly 
already in Europe, to carry out opportunistic attacks; and, finally, it 
will likely deploy operatives from overseas on directed missions to 
strike at targets in Europe and elsewhere throughout the world. A new 
additional category is that of the ``enabled'' attack: where groups 
like ISIS provide individuals with suggestions of potential targets 
along with detailed targeting information--including names of person to 
be targeted, home and work addresses, e-mail addresses. ISIS's recent 
publication of some 8,000 U.S. citizens and their addresses is a case 
in point.
    There is also a danger of al Qaeda absorbing whether coercively or 
voluntarily the rump of remaining ISIS fighters once their leaders are 
killed and their command structures collapse. Combatting this threat 
requires a systematic, simultaneous and unrelenting campaign waged 
against ISIS sanctuaries and safe havens everywhere (according to the 
National Counter-Terrorism Center, there are ISIS branches in some 18 
counties across the Middle East, Africa, and South Asia
    Mr. Franks. What is your definition of victory against the Islamic 
State? Is complete defeat plausible?
    Mr. Hoffman. Yes, it is plausible. Victory is when ISIS is reduced 
to an inconsequential number of survivors, is shorn of its territory 
and pretensions of governance, and when its message, appeal and ability 
to attract recruits no longer has the allure and drawing power that it 
once had
    Mr. Franks. Do you believe we need a 21st century NSC-68 for our 
fight against radical Islam?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Mr. Franks. What happens in the coming months and years as we 
diminish the territorial holdings of ISIS in the Middle East? What will 
happen as we squeeze ISIS and take away their territory? Will there be 
an increase in small-scale terror attacks in Europe and the U.S.? How 
do we combat this?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Mr. Franks. What is your definition of victory against the Islamic 
State? Is complete defeat plausible?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Mr. Franks. Do you believe we need a 21st century NSC-68 for our 
fight against radical Islam?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
    Mr. Franks. What happens in the coming months and years as we 
diminish the territorial holdings of ISIS in the Middle East? What will 
happen as we squeeze ISIS and take away their territory? Will there be 
an increase in small-scale terror attacks in Europe and the U.S.? How 
do we combat this?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
    Mr. Franks. What is your definition of victory against the Islamic 
State? Is complete defeat plausible?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Clausewitz said: ``The political object--the original 
motive for the war--will thus determine both the military objective to 
be reached and the amount of effort it requires.'' (On War, p. 80)
    What does winning look like against this threat? What should our 
political, strategic, and military objectives be? How optimistic or 
pessimistic are you that these objectives are achievable?
    Mr. Hoffman. Winning is when a terrorist group is deprived its 
ability to have strategic consequences: when its capacity for violence 
is diminished, when its power is reduced to miniscule numbers of 
fighters, and when its geographic operational locus is constrained, and 
when their messages fall flat, their narratives are shown to be empty 
and they are no long able to recruit new fighters and attract new 
supporters. Winning is when terrorists lose access to sanctuary and 
safe haven and are deprived of the opportunity to re-group and re-
organize: that is, when they are kept on the run and too preoccupied 
about their own security so that they cannot plan and plot new 
terrorist operations. Our objectives should be: the elimination of 
terrorist access to sanctuary and safe haven along the systematic 
weakening and dismantling of their organizational infrastructure and 
far-flung networks, and effective countering of both their message and 
narrative. If and when we are prepared to use all aspects of our 
national power--diplomatic, military, intelligence, finance, and 
communications--in a coherent, cohesive, holistic and sustained and 
systematic way, all the above objectives will be achieved.
    Mr. Lamborn. Clausewitz said: ``The political object--the original 
motive for the war--will thus determine both the military objective to 
be reached and the amount of effort it requires.'' (On War, p. 80)
    What does winning look like against this threat? What should our 
political, strategic, and military objectives be? How optimistic or 
pessimistic are you that these objectives are achievable?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Mr. Lamborn. Clausewitz said: ``The political object--the original 
motive for the war--will thus determine both the military objective to 
be reached and the amount of effort it requires.'' (On War, p. 80)
    What does winning look like against this threat? What should our 
political, strategic, and military objectives be? How optimistic or 
pessimistic are you that these objectives are achievable?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Mr. Jenkins, I read with great interest your commentary 
from last September, ``Fifteen Years on, Where Are We in the `War on 
Terror'?'' This point in particular caught my attention: ``The United 
States' frightened, angry, and divided society remains the country's 
biggest vulnerability. Progress in degrading Al Qaeda's capabilities or 
dismantling the Islamic State is almost completely divorced from 
popular perceptions. Rather than appeal to traditional American values 
. . . our current political system incentivizes the creation of fear.'' 
Unfortunately, our society isn't less frightened, angry, or divided now 
than it was in September. Can you elaborate a bit further on why you 
think this is the nation's biggest vulnerability? What would be your 
advice to our political leadership for how to address this 
vulnerability?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Ms. Speier. Mr. Jenkins, you provided some valuable context in an 
interview last month with the Cipher Brief. After tallying 89 people 
who have been killed as a result of fatal jihadist-driven terrorist 
attacks in the United States since 9/11, you asked ``How many of those 
lives would have been saved had [Trump's Executive Order] been put into 
effect after 9/11 and applied for the entire 15-year period? The answer 
is zero.'' You further noted that none of the 19 attackers on 9/11 were 
from the countries named in Trump's order. Regardless of what ends up 
happening in the courts, have you seen evidence that Trump's Executive 
Order is being used as a rallying cry and recruitment tool for 
jihadists? Has the damage already been done, and is it irreparable?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Ms. Speier. The events of September 11 led to a massive overhaul 
and restructuring of the Federal Government. We stood up new agencies, 
consolidated old ones, and reorganized the intelligence community . . . 
all with the intent of promoting better information sharing and 
improving our ability to connect the dots to prevent the next terrorist 
attack. Did we get it right? What more needs to be done on the 
organizational front?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY DR. WENSTRUP
    Dr. Wenstrup. In February 2015, you signed a letter organized by 
the Center for the Study of the Presidency and Congress supporting the 
passage of a Congressional Authorization for the Use of Military Force 
directed at ISIL. The letter notes that, in formulating a long-term 
strategy for the region, ``a key first step is to indicate U.S. 
political resolve and strategic aims through the passage of an 
authorization for the use of military force to combat--and ultimately 
destroy--ISIL and to facilitate U.S. assistance to the Syrian 
opposition.'' It goes on to say, ``A bipartisan AUMF can serve as a 
valuable tool for demonstrating U.S. willingness to confront ISIL, and 
will establish a broader strategic framework for this campaign.'' Do 
you still believe the passage of an AUMF is an important component of 
the U.S. effort against ISIL?
    Mr. Hoffman. Yes. Only when the will of the Congress is made clear 
to both the president and the American people, will we have the resolve 
and the resources to prosecute the war on terrorism to the fullest 
extent in a manner that will truly assure victory.
    Dr. Wenstrup. What constraints do the current legal authorities for 
the counter-ISIL mission--primarily the 2001 and 2002 Authorizations 
for the Use of Military Force, in addition to the President's Article 
II authority--impose on our counterterrorism operations? Do you believe 
these limitations are appropriate?
    Mr. Jenkins. [No answer was available at the time of printing.]
    Dr. Wenstrup. Back in May 2013, in testimony before the Senate 
Armed Services Committee, you said, ``At this point, we are comfortable 
with the AUMF as it is currently structured. Right now, it does not 
inhibit us from prosecuting the war against Al Qaeda and its 
affiliates. If we were to find a group or organization that was 
targeting the United States, first of all, we would have other 
authorities to deal with that situation.'' Are you still comfortable 
with the existing authorization, or have the rise of ISIL, its split 
with Al Qaeda, and other recent developments changed your conclusion?
    Ambassador Sheehan. [No answer was available at the time of 
printing.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
